I
\
iHTfO

: i

Case Number

i&m

®&m@m

&m3$&€M€ €<mam

LECIA L. SHORTER
Objector, Class Member and Petitioner
v.

MARY AMADOR, ET AL,
Plaintiffs Individually and as Class Representatives and Respondents
v.

LEROY BACA, COUNTY OF LOS ANGELES AND LOS ANGELES COUNTY
SHERIFF’S DEPARTMENT,
Defendants and Respondents
On Petition for Writ of Certiorari from the Ninth Circuit Court of Appeals and
from the United States District Court for the Central District of California, Case
No. 2:10-CV-01649-SVW
District Court Judge Stephen V. Wilson

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

Lecia L. Shorter
287 S. Robertson Blvd., No. 291
Beverly Hills, CA 90211
(310) 869-5838

Petitioner in Pro Per

INDEX TO APPENDICES

1.

2.
3.
4.
5.
6.
7.
8.

9.

Appendix A - Dispositive Order of the United States Ninth Circuit Court
of Appeals dated February 12, 2021 - Case Nos. 20-55965 and 20562878
Appendix B - Dispositive Order of the United States Ninth Circuit Court
of Appeals dated February 12, 2021 - Case Nos. 20-562878
Appendix C - Ninth Circuit Mandates dated March 8, 2021 - Case No.
20-55965
Appendix D - Ninth Circuit Mandates dated March 8, 2021 - Case No.
20-56278
Appendix E - Ninth Circuit Clerk Order dated December 16,2020 for
Case No. 20-56278
Appendix F - United States District Court for the Central District of
California Order Denying Motion to Intervene dated October 29, 2020
Appendix G - United States District Court for the Central District of
California Order Denying IFP Motion dated September 21, 2020
Appendix H - United States District Court for the Central District of
California Order Granting Motion for Final Approval of Class Action
Settlement and Granting in Part Motion for Attorney’s Fees dated August
11,2020
Appendix I - United States District Court Order Granting Plaintiffs
Motion for Summary Judgment and Order Granting in Part and Denying
in Part Defendants’ Motion for Summary Judgment dated June 7, 2017

APPENDIX A

Case: 20-55965, 02/12/2021, ID: 12002949, DktEntry: 12, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 12 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARY AMADOR; et al.,
Plaintiffs-Appellees,
v.
LECIA L. SHORTER,

No.

20-55965

D.C. No.
2:10-cv-01649-SVW-JEM
Central District of California,
Los Angeles
ORDER

Obj ector-Appellant,
v.
LEROY D. BACA, Sheriff, in his official
capacity; et al.,
Defendants-Appellees.
Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges.
Appellees’ motion to dismiss this appeal for lack ofjurisdiction (Docket
Entry No. 3) is granted.
Appellant’s motion to proceed in forma pauperis (Docket Entry No. 6) is
denied as moot.
DISMISSED.

SC/MOATT

APPENDIX B

Case: 20-56278, 02/12/2021, ID: 12002872, DktEntry: 6, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 12 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARY AMADOR; et al.,
Plaintiffs-Appellees,
v.

LECIA L. SHORTER,

No.

20-56278

D.C. No.
2:10-cv-01649-SVW-JEM
Central District of California,
Los Angeles
ORDER

Obj ector-Appellant,
v.

LEROY D. BACA, Sheriff, in his official
capacity; et al.,
Defendants-Appellees.
Before: CANBY, GRABER, and FRIEDLAND, Circuit Judges.
Upon a review of the record and the response to the court’s December 16,
2020 order, we conclude this appeal is frivolous. We therefore deny appellant’s
motion to proceed in forma pauperis (Docket Entry No. 3), see 28 U.S.C.
§ 1915(a), and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2)
(court shall dismiss case at any time, if court determines it is frivolous or
malicious).
DISMISSED.

SC/MOATT

/

APPENDIX C

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 08 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MARY AMADOR; et al.,
Plaintiffs - Appellees,
v.

LECIA L. SHORTER,

No. 20-55965
D.C. No. 2:10-cv-01649-SVW-JEM
U.S. District Court for Central
California, Los Angeles
MANDATE

Objector - Appellant,
v.
LEROY D. BACA, Sheriff, in his
official capacity; et al.,
Defendants - Appellees.

The judgment of this Court, entered February 12,2021, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: David J. Vignol
Deputy Clerk
Ninth Circuit Rule 27-7

APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 08 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARY AMADOR; et al.
Plaintiffs - Appellees,
v.

LECIAL. SHORTER,

No. 20-56278
D.C. No. 2:10-cv-01649-SVW-JEM
U.S. District Court for Central
California, Los Angeles
MANDATE

Objector - Appellant,
v.
LEROY D. BACA, Sheriff, in his
official capacity; et al.,
Defendants - Appellees.

The judgment of this Court, entered February 12, 2021, takes effect this
date.
This constitutes the formal mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

APPENDIX E

p or ib)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-1, Page 1 of 3

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
DEC 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

MARY AMADOR; et al.,
Plaintiffs-Appellees,
v.

LECIAL. SHORTER,

No.

20-56278

D.C. No.
2: lO-cv-01649-SVW-JEM
Central District of California,
Los Angeles
ORDER

Obj ector-Appellant,
v.

LEROY D. BACA, Sheriff, in his official
capacity; et al.,
Defendants-Appellees.
A review of the district court’s docket reflects that the district court denied
appellant Lecia Shorter’s motion for leave to proceed in forma pauperis for this
appeal of the district court’s October 29, 2020 order denying appellant’s motion to
intervene, because it found that the appeal is frivolous. This court may dismiss a
case at any time, if the court determines the case is frivolous. See 28 U.S.C. §
1915(e)(2).
Within 35 days after the date of this order, appellant must:
(1) file a motion to dismiss this appeal, see Fed. R. App. P. 42(b), or

CO/Pro Se

{2 or ib)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-1, Page 2 of 3

(2) file a statement explaining why the appeal is not frivolous and should go
forward.
If appellant files a statement that the appeal should go forward, appellant
also must:
(1) file in this court a motion to proceed in forma pauperis, OR
(2) pay to the district court $505.00 for the filing and docketing fees for this
appeal AND file in this court proof that the $505.00 was paid.
If appellant does not respond to this order, the Clerk will dismiss this appeal
for failure to prosecute, without further notice. See 9th Cir. R. 42-1. If appellant
files a motion to dismiss the appeal, the Clerk will dismiss this appeal, pursuant to
Federal Rule of Appellate Procedure 42(b). If appellant submits any response to
this order other than a motion to dismiss the appeal, the court may dismiss this
appeal as frivolous, without further notice.
If appellant files a statement that the appeal should go forward, appellee may
file a response within 10 days after service of appellant’s statement.
The briefing schedule for this appeal is stayed.
The Clerk shall serve on appellant: (1) a form motion to voluntarily dismiss
the appeal, (2) a form statement that the appeal should go forward, and (3) a Form
4 financial affidavit. Appellant may use the enclosed forms for any motion to

CO/Pro Se

2

(3 or 11»)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-1, Page 3 of 3

dismiss the appeal, statement that the appeal should go forward, and/or motion to
proceed in forma pauperis.

FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Corina Orozco
Deputy Clerk
Ninth Circuit Rule 27-7

v.

CO/Pro Se

3

(4 or i b)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-2, Page 1 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
9th Or. Case No.
Appellants),

v.

Appellee(s).

MOTION TO VOLUNTARILY DISMISS APPEAL

Pursuant to Federal Rule of Appellate Procedure 42(b), appellant(s)
hereby move(s)
the court for an order dismissing appeal No.

Dated:
Print Name(s)

Signature(s)

Appellant(s) in Pro Se

(b OT1 b)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-2, Page 2 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
9th Gr. Case No.
Appellant(s),

v.

Appellee(s).
STATEMENT THAT APPEAL SHOULD GO FORWARD
(attach additional sheets as necessary)

1. Date(s) of entry ofjudgment or order(s) you are challenging in this appeal:

2. What claims did you raise to the court below?

(b OT lb)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-2, Page 3 of 4

3. What do you think the court below did wrong? (You may, hut need not, refer to
cases and statutes.)

x..

(/ or it>)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-2, Page 4 of 4

4. Why are these errors serious enough that this appeal should go forward?

5. Additional Information:

Dated:
Print Name(s)

Signature(s)
Appellant(s) in Pro Se

(8 Ot 11>)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-3, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INSTRUCTIONS for Form 4.
Motion and Affidavit for Permission to Proceed in Forma Pauperis
Use Form 4 or an equivalent financial declaration to ask the court to waive the
filing fees for an appeal or petition for review in any civil case.
For criminal and habeas corpus cases, use Form 23 CJA Financial Affidavit
instead of Form 4 to request a fee waiver or to ask for appointment of counsel.
• Answer all questions on the form even if the answer is “0” or “N/A” (not
applicable).
• Include your case number and sign the form. You do not need to have the form
notarized.
• Do not include your Social Security number.
If you are a self-represented party who is not registered for electronic filing, mail
the completed form to: U.S. Court of Appeals for the Ninth Circuit, P.O. Box
193939, San Francisco, CA 94119-3939.
To file Form 4 electronically, use the electronic document filing type “Motion for
Any Type of Relief’ and “motion to proceed in forma pauperis” as the relief.
How to prepare fill-in forms for filing:
• If you have Adobe Acrobat or another tool that lets you save completed forms:
1. Complete the form.
2. Print the completed form to your PDF printer (File > Print > select Adobe
PDF or another PDF printer listed in the drop-down list).
• If you do not have Adobe Acrobat or another tool that lets you save completed
forms:
1. Complete the form.
2. Print the completed form to your printer.
3. Scan the completed form to a PDF file.
Note: The fill-in PDF version of the form is available on the court’s website at
http://www.ca9.uscourts.gov/forms/.
Do not file this instruction page
Feedback or questions about thisform? Email us at forms(alca9. uscourts. gov

Form 4 Instructions

Rev. 12/01/18

(y or io)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 1 of 7

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 4. Motion and Affidavit for Permission to Proceed in Forma Pauperis
Instructions for this form: http://www.ca9.uscourts.gov/forms/form04instructions.pdf

9th Cir. Case Number(s)
Case Name
Affidavit in support of motion: I swear under penalty of perjury that I am
financially unable to pay the docket and filing fees for my appeal. I believe my
appeal has merit. I swear under penalty of perjury under United States laws that
my answers on this form are true and correct. 28 U.S.C. § 1746; 18 U.S.C. § 1621.
Date

Signature

The court may grant a motion to proceed in forma pauperis if you show that you
cannot pay the filing fees and you have a non-ffivolous legal issue on appeal.
Please state your issues on appeal, {attach additional pages if necessary)

Feedback or questions about this form? Email us at forms(a)ca9. uscourts. eov

Form 4

1

Rev. 12/01/2018

!

(iu or it>)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 2 of 7
1. For both you and your spouse, estimate the average amount ofmoney receivedfrom each of the following
sources during the past 12 months. Adjust any amount that was received weekly, biweekly, quarterly,
semiannually, or annually to show the monthly rate. Use gross amounts, that is, amounts before any deductions
for taxes or otherwise.

Average monthly amount during
the past 12 months
Spouse

You

Income Source

Amount expected next month
Spouse

You

Employment

$

$

$

$

Self-Employment

$

$

$

$

Income from real property
(such as rental income)

$

$

$

$

Interest and Dividends

$

$

$

$

Gifts

$

$

$

$

Alimony

$

$

$

$

Child Support

$

$

$

$

Retirement (such as social security,
pensions, annuities, insurance)

$

$

$

$

Disability (such as social security,
insurance payments)

$

$

S

Unemployment Payments

$

$

$

$

Public-Assistance (such as welfare)

$

$

$

$

Other (specify)

$

$

$

$

TOTAL MONTHLY INCOME:

$

$

$

$

Feedback or questions about thisform? Email us at forms(a).ca9. uscourts. 9QV

Form 4

2

Rev. 12/01/2018

(11 OT lb)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 3 of 7
2. List your employment history for the past two years, most recent employerfirst.
(Gross monthly pay is before taxes or other deductions.)
Employer

Gross Monthly
Pay

Dates of
Employment

Address

From
$
To

From
$
To

From
$
To

From
$
To

3. List your spouse's employment history for the past two years, most recent employerfirst.
(Gross monthly pay is before taxes or other deductions.)

Employer

Gross Monthly
Pay

Dates of
Employment

Address

From
$
To

From
$
To

From
$
To

From
$
To

Feedback or questions about thisform? Email us at forms(3).ca9.uscourts.gov

Form 4

3

Rev. 12/01/2018

(rz or ib)
Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 4 of 7
4. How much cash do you and your spouse have?

$

Below, state any money you or your spouse have in bank accounts or in any otherfinancial institution.
Amount Your Spouse
Has

Amount You Have

Type of Account

Financial Institution

$

$

$

$

$

$

$

$

Ifyou are a prisoner seeking to appeal a judgment in a civil action or proceeding, you must attach a
statement certified by the appropriate institutional officer showing all receipts, expenditures, and balances
during the last six months in your institutional accounts. Ifyou have multiple accounts, perhaps because
you have been in multiple institutions, attach one certified statement of each account

5. List the assets, and their values, which you own or your spouse owns. Do not list clothing and ordinary
householdfurnishing.
Other Real Estate

Value

Home

$

$

Motor Vehicle 1: Make & Year

Value

Registration #

Model

Value

$

Motor Vehicle 2: Make & Year

Registration #

Model

Value

$

Feedback or questions about this form? Email us at forms(a).ca9.uscourts.eov

Form 4

4

Rev. 12/01/2018

o

1*13 or ib)

Case: 20-56278, 12/16/2020, ID: 11930203, Dk1 Q

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 5 of 7

8. Estimate the average monthly expenses ofyou and yourfamily. Sh„ O
spouse. Adjust any payments that are made weekly, biweekly, quarter W
monthly rate.

Value

Other Assets

o

Rent or home-mortgage payment (include lot rented for mobile home)
- Are real estate taxes included?

OYes

ONo

- Is property insurance included?

OYes

ONo

Utilities (electricity, heating fuel, water, sewer, and telephone)

v /

$

o

$

o
o
o
o
o

$

O
\ '

o
o
o
o

Home maintenance (repairs and upkeep)
Food
Clothing
Laundry and dry-cleaning

o

Medical and dental expenses

(>

6. State every person, business, or organization owing you or your spouse money, and the amount owed.

o

Amount owed to your spouse

Amount owed to you

Person owing you or your spouse

$

$

$

$

$

$

v >

Transportation (not including motor vehicle payments)

o
o

Recreation, entertainment, newspapers, magazines, etc.

LA

Insurance (not deducted from wages or included in mortgage payments)
- Homeowner's or renter's

o
o
o

- Health

o
o

- Motor Vehicle

( .)

- Life

7. State the persons who rely on you or your spouse for support. Ifa dependent is a minor, list only the initials
and not the full name.

o

Relationship

Name

Age

V

-Other

LJ

Taxes (not deducted from wages or included in mortgage payments)
Specify

( )

J
K )

o
!u
^)
Feedback or questions about thisform? Email us at forms

Form 4

6

u
LA

o
o

Feedback or questions about thisform? Email us at forms(a).ca9.uscourts.pov

Form 4

5

Rev. 12/01/2018

(it> or it>)

Case: 20-56278, 12/16/2020, ID: 11930203, DktEntry: 2-4, Page 7 of 7
You

Spouse

Installment payments
- Motor Vehicle

$

$

- Credit Card (name)

$

$

- Department Store (name)

$

$

Alimony, maintenance, and support paid to others

$

$

Regular expenses for the operation of business, profession, or farm
(attach detailed statement)

$

$

Other (specify)

$

$

TOTAL MONTHLY EXPENSES $

$

9. Do you expect any major changes to your monthly income or expenses or in your assets or liabilities during
the next 12 months? OYes ONo
If Yes, describe on an attached sheet.
10. Have you spent—or will you be spending—any money for expenses or attorney fees in connection with this
lawsuit? OYes ONo
If Yes, how much? $
11. Provide any other information that will help explain why you cannot pay the docketfees for your appeal.

12. State the city and state ofyour legal residence.
State

City

Your daytime phone number (ex., 415-355-8000)
Your age

Your years of schooling

Feedback or questions about thisform? Email us at forms(3).ca9. uscourts. gov

Form 4

7

Rev. 12/01/2018

APPENDIX F

i

Activity in Case 2:10-cv-01649-SVW-JEM Mary Amador et al v. Leroy D. Baca et al Text Only
Scheduling Notice
From: cacd_ecfmail@cacd.uscourts.gov
To:

ecfnef@cacd.uscourts.gov

Date: Thursday, October 29, 2020, 05:30 PM PDT

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail
because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of
record and parties in a case (including pro se litigants) to receive one free electronic copy of all documents
filed electronically, if receipt is required by law or directed by the filer. PACER access fees apply to all other
users. To avoid later charges, download a copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA

Notice of Electronic Filing
The following transaction was entered on 10/29/2020 at 5:29 PM PDT and filed on 10/29/2020

Mary Amador et al v. Leroy D. Baca et al
Case Name:
2:1 Q-cv-01649-SVW-JEM
Case Number:
Filer:
Document Number: 486(No document attached)
Docket Text:

IN CHAMBERS ORDER-TEXT ONLY ENTRY by Judge Stephen V. Wilson: Because she
does not meet the requirements for intervention as of right or permissive intervention,
Lecia Shorters motion to intervene [476] is DENIED. Intervention as of right requires an
interest relating to the property or transaction that is the subject of the action. Fed. R. Civ.
P. 24(a)(2). Moreover, an intervenor must have Article III standing to seek separate relief,
see Town of Chester v. Laroe Estates, Inc., 137 S. Ct. 1645,1651 (2017), or to litigate
independently in the absence of the party on whose side intervention is sought, see
Diamond v. Charles, 476 U.S. 54, 68 (1986). As the Court explained in its prior Order,
because Shorter has opted out, she no longer has an interest in or standing to litigate in
this case. Dkt. 473. Finally, Shorter admits that she became aware of the settlement on July
28, 2019, Dkt. 476, at 11, and Shorters considerable delay and potential disruption to the
settlement both make permissive intervention inappropriate, Fed. R. Civ. P. 24(b)(3). The
hearing is vacated and off-calendar. THERE IS NO PDF DOCUMENT ASSOCIATED WITH
THIS ENTRY, (pc) TEXT ONLY ENTRY
2:10-cv-01649-SVW-JEM Notice has been electronically mailed to:
Andrew I Baum
Barrett S Litt
Colleen Flynn

abaum@glaserweil.com, jjaramillo@glaserweil.com
blitt@kmbllaw.com, jwhite@kmbilaw.com, reception@kmbllaw.com
cflynnlaw@yahoo.com

Cynthia M Anderson-Barker

cablaw@hotmail.com

Donald Webster Cook
Jin S Choi

manncook@earthlink.net, dwc4009@sbcglobal.net

jchoi@lbaclaw.com, eghadimian@lbaclaw.com

Justin W Clark

jclark@lbaclaw.com, ekrylova@lbaclaw.com, ksimonian@lbaclaw.com

Lecia L Shorter

leciashorter@yahoo.com

Lindsay Battles

lbattles@kmbllaw.com, mbolanos@kmbllaw.com

Paul B Beach

pbeach@lbaclaw.com, dard@lbaclaw.com

Robert Frederick Mann

manncook@earthlink.net

2:10-cv-01649-SVW-JEM Notice has been delivered by First Class U. S. Mail or by other means BY THE FILER to

Darla Ray Jones
CDC WE7503
California Institution for Women - CIW
Wilson B 929L
16756 Chino-Corona Road
Corona, CA 92880
Gilberto Figueroa Merced
PO Box 1321
Mayaguez, PR 00681-1321
Jessica Vega
CDC WF6975
PO Box 1508
Chowchilla, CA 93610
Joyce Lucero
9163 Mills Ave
Montclair, CA91763
Yvonne Cruz
4734 E 57th St Apt B
Maywood, CA 90270-4000

APPENDIX G

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Maty Amador et al., v. SherriffLeroy D. Baca et al.

Present: The Honorable

STEPHEN V. WILSON, U.S. DISTRICT JUDGE

Paul M. Cruz

N/A

Deputy Clerk

Court Reporter / Recorder

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

N/A

N/A

Proceedings:
I.

9/21/2020

ORDER DENYING LECIA SHORTER’S MOTION TO APPEAL IN
FORMA PAUPERIS [468]

Introduction

On August 11,2020, the Court entered its order granting final approval to the settlement in this
class action arising out of body cavity inspections at a Los Angeles County Sheriff1 s Department
facility. Dkt. 463. Lecia Shorter opted out of that settlement. Dkt. 463, at 10; 465. Nevertheless, she
sought to participate pro se in the final approval proceedings, filing an objection, Dkt. 450, Ex. J, an
opposition, Dkt. 452, and a reply brief, Dkt. 457.
In its order granting final approval, the Court noted its concerns that Shorter lacked standing to
object because she opted out of the settlement. Dkt. 463, at 10-11. The Court accordingly treated her
filings “as equivalent to an amicus brief’ and concisely addressed her points. Id. at 11-12.
On September 11,2020, Shorter filed a motion to appeal in forma pauperis under 28 U.S.C. §§
753(f), 1915(a). Dkt. 468. Class counsel opposed the motion. Dkt. 470. Because Shorter lacks
standing as an opt-out to appeal the settlement, the Court DENIES Shorter’s motion.
II.

Legal Standard

“An appeal may not be taken in forma pauperis if the trial court certifies in writing that it is not
taken in good faith.” 28 U.S.C. § 1915(a)(3); see also § 753(f) (providing payment for transcripts for
appellants proceeding in forma pauperis). Whether an appeal is filed in good faith is an “objective

Initials of Preparer
CIVIL MINUTES - GENERAL

PMC
Page 1 of3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador et al, v. SherriffLeroy D. Baca et al.

9/21/2020

standard.” Coppedge v. United States, 369 U.S. 438,445 (1962). A party filing a frivolous appeal lacks
good faith to file in forma pauperis. See Hooker v. American Airlines, 302 F.3d 1091,1092 (9th Cir.
2002) (“If at least one issue or claim is found to be non-frivolous, leave to proceed in forma pauperis on
appeal must be granted for the case as a whole.”); Tripati v. First Nat. Bank & Tr., 821 F.2d 1368,136970 (9th Cir. 1987); see also Brooks v. Pinnacle Fin. Corp., 2018 WL 1322028, at *1 (C.D. Cal. 2018).
A claim is frivolous when brought by a party who lacks standing. See Minetti v. Port ofSeattle, 152
F.3d 1113,1115 (9th Cir. 1998).

ra.

Analysis

Because she opted out of the class settlement, Shorter lacks standing to appeal the Court’s final
approval order. “Class members who opt out of the class at certification or at settlement are no longer
considered class members, and hence Rule 23 does not give them standing to object to the settlement.”
Newberg on Class Actions § 13.23 (5th ed.); see also Wright & Miller, Federal Practice and Procedure §
1797.4 (3d ed.) (“[Cjourts have concurred that a class member who opts out of the suit... has no
standing to appeal a later settlement.”). Rule 23 makes this result clear: “[a]ny class member may
object...” Fed. R. Civ. P. 23(e)(5)(A) (italics added). It is a consensus position. See Senegal on behalf
of a class v. JPMorgan Chase Bank, N.A., 939 F.3d 878, 881 (7th Cir. 2019) (citing In re Brand Name
Prescription Drugs Antitrust Litig., 115 F.3d 456 (7th Cir. 1997)); In re Integra Realty Res., Inc., 262
F.3d 1089,1101-03 (10th Cir. 2001); In re Vitamins Antitrust Class Actions, 215 F.3d 26,28-29 (D.C.
Cir. 2000) (citing Mayfield v. Barr, 985 F.2d 1090,1093 (D.C. Cir. 1993)); Zamora v. Ryder Integrated
Logistics, Inc., 2014 WL 9872803, at *2 (S.D. Cal. 2014); Wixon v. Wyndham Resort Dev. Corp., 2011
WL 3443650, at *1 n.2 (N.D. Cal. 2011); Tarlecki v. bebe Stores, Inc., 2009 WL 3720872, at *1 n.l
(N.D. Cal. 2009); Glass v. UBS Fin. Servs., 2007 WL 221862, at *8 (N.D. Cal. 2007); see also
Newberg, § 13.23 n.6 (collecting cases).
Although the Ninth Circuit has no case standing for this precise proposition, that Shorter lacks
standing to appeal is an obvious and unavoidable application of its precedents. A party only has
standing to appeal a class settlement if the party is aggrieved by the settlement and modifying the
settlement would redress the party’s injury. See Glasser v. Volkswagen of Am., Inc., 645 F.3d 1084,
1088 (9th Cir. 2011); In re First Capital Holdings Corp. Fin. Prods. Secs. Litig., 33 F.3d 29,30 (9th Cir.
1994); Knisley v. Network Assocs., Inc., 312 F.3d 1123,1126 (9th Cir. 2002). Because an opt-out such
as Shorter does not benefit from and is not bound by the settlement, she is not aggrieved by the
settlement and no asserted injuries could be redressed by its modification.

Initials of Preparer
CIVIL MINUTES - GENERAL

PMC
Page 2 of3

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador et al., v. SherriffLeroy D. Baca et al.

9/21/2020

Importantly, Shorter does not present a coherent argument to support standing. She explained at
the approval stage that “she intends to opt out of the settlement payout and maintain her status as class
member and intended beneficiary of the Monell liability determination.” Dkt. 452, at 6. Shorter appears
to reiterate the same argument in her reply in support of this motion. Dkt. 471, at 2-5. Shorter’s reliance
on Powers v. Eichen is misplaced because that case involved an appeal by an unnamed class member —
not an appeal by a party who had opted out. 229 F.3d 1249,1256 (9th Cir. 2000). Shorter remains free
to use this Court’s prior orders for any preclusive or persuasive value they may have in her own case.
However, she may not both opt out of the class settlement and retain her right to appeal a settlement that
has no effect on the claims she chose to litigate independently. See Newberg, § 13.23 (“[C]lass
members may either object or opt out, but they cannot do both.”).1
IV.

Conclusion

For the foregoing reasons, the Court DENIES Shorter’s motion for leave to appeal in forma
pauperis.

1 Non-class members may have standing to object if they can show “plain legal prejudice” resulting from the settlement. See
Newberg,§ 13.23&n.l2. By opting out, Shorter “escape[d] the binding effect of the class settlement.” In re Vitamins
Antitrust Class Actions, 215 F.3d at 29 (quoting Mayfield, 985, F.2d at 1093). Therefore, although she does not argue this
point, she would not be able to show plain legal prejudice. See Integra Realty, 262 F.3d at 1102-03 (internal citation and
quotation marks omitted) (“plain legal prejudice” means that a settlement affects contract, contribution, or indemnification
rights, or that it “strip[s] the party of a legal claim or cause of action”).

Initials of Preparer
CIVIL MINU TES - GENERAL

PMC
Page 3 of3

APPENDIX H

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal., v. Sheriff Leroy D. Baca, etc., etal.,

8/11/2020

Present: The Honorable STEPHEN V. WILSON, U.S. DISTRICT JUDGE
N/A
Court Reporter / Recorder

Paul M. Cruz
Deputy Clerk
Attorneys Present for Plaintiffs:

Proceedings:

Attorneys Present for Defendants:

N/A
N/A
ORDER GRANTING MOTION FOR FINAL APPROVAL OF CLASS
ACTION SETTLEMENT AND GRANTING IN PART MOTION FOR
ATTORNEY’S FEES [449] [409]

Motion for Final Approval of the Class Settlement
I.

Introduction

Before the Court is a motion for final approval of a class action settlement filed by Lead
Plaintiffs Mary Amador et al. in the class action lawsuit listed above. The County of Los Angeles and
the Los Angeles County Sheriffs Department (collectively “Defendants”) do not oppose this motion.
For the reasons articulated below, the Court GRANTS the motion for final approval of the class action
settlement.
H.

Factual and Procedural Background

Lead Plaintiffs Mary Amador et al. represent a class of female inmates of the Los Angeles
County Sheriffs Department (“LASD”) who contend that highly invasive body cavity inspections
conducted during the relevant class period (March 5,2008 to January 1,2015) violated their Fourth
Amendment rights. Dkt. 449 at 1. These searches took place at the Century Regional Detention Facility
(“CRDF”) operated by LASD in Lynwood, California. After certification of several classes and sub­
classes, Dkt. 327, the Court granted Plaintiffs Motion for Summary Judgment on June 7,2017. Dkt.

Initials of Preparer
PMC
CIVI1. MINUTES - GENERAL

Page 1 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., et ah,

8/11/2020

361. Following a prolonged period of negotiation and mediation, the parties made a Motion for
Preliminary Approval of Class Action Settlement. Dkt. 387. The Court initially denied the motion
because it diverted $3 million in settlement funds to contracts between the County of Los Angeles (“the
County”) and certain for-profit and non-profit entities to develop gender-responsive policies at LASD
facilities, which the Court found reduced the amount of funds available to the victims. Dkt. 394. After
the parties presented the Court with a revised settlement that eliminated the diversion of $3 million in
class funds, the Court granted preliminary approval to the settlement agreement. Dkt. 399.
The revised Settlement Agreement requires LASD to pay a total of $53 million dollars into a
settlement fund over a period of three years. Dkt. 395-11 (“the Settlement Agreement”). The distribution
of funds provided in the Settlement Agreement includes:
• Incentive awards to nine named plaintiffs of $10,000 each.
• Third-party class settlement administration costs by the chosen administrator, JND Legal
Administration (“JND”), which are currently $672,185.96 based on incurred and estimated
fees associated with administration of settlement claims. See Dkt. 451 at 7-8.
• A provision giving Class Counsel the right to apply for attorney’s fees of up to one-third of
the Class Fund as well as litigation costs, with final approval over any award of attorney’s
fees at the Court’s discretion.
• The remainder of the Class Fund to be distributed to class members under a points-based
allocation formula (described in more detail below).
The Class includes a total of 94,857 members, based on the contact information available to the
parties and JND from the County’s records. Claims made by class members are subject to a points-based
distribution formula. See Dkt. 395-1 at 10-12. The distribution formula developed in the course of
mediation by the parties is premised on the changing conditions and level of privacy across the multi­
year class period. Id. at 10. It allocates increasing point totals for searches endured under worse
conditions during earlier periods in the class. Id. at 11. Class members receive proportionate recoveries
1 Plaintiffs cite to the unrevised Settlement Agreement at various points in their motion for final approval of the class
settlement. See Dkt. 449 at 4-5. Because the revised Settlement Agreement includes relatively simple alterations to the
settlement terms, this error does not alter the Court’s analysis.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 2 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal,

based on the total number of searches they have endured, because their recovery is tied to their
proportionate share of the total points awarded to the class. Id. Class members were also given the
opportunity to opt-out of the settlement during the notice period. Id. at 24-25. While up to 250 members
were permitted to opt-out under the Settlement Agreement’s terms before Defendants were able to
withdraw from the settlement, only six class members have done so. Dkt. 451 at 6.
On January 6,2020, JND began to send notices alerting class members to the settlement. The
Administrator sent notices via text message to 58,272 mobile phone number representing 39,567 class
members. Dkt. 451 at 2. The Administrator also sent 54,903 emails to 33,229 class members. Id. Finally,
JND sent notices via mail to 71,676 class members. Id. JND estimates that 91.5% of the settlement class
has received a text, email, or mailing that was not returned as undeliverable. Id. at 3. JND also utilized
updated contact information provided by the California Department of Corrections and Rehabilitation to
send additional notice to class members and locate additional mailing addresses. Id. at 4-5. JND
purchased internet advertising, set up a settlement website, and provided a toll-free phone number to
facilitate submission of claims to the settlement. Id. at 5-6. As of July 6,2020, JND has received almost
40,000 claims, and has approved 25,528. Id. at 607. 9,940 claims have deficiencies that JND is currently
addressing, and it anticipates that approximately one-half of those claims will ultimately be approved.
Dkt. 449 at 9. This means that roughly one-third of class members will receive a distribution from the
settlement fund, a figure that Class Counsel (who are specialists in this area of civil rights litigation)
assert is an especially high claims rate for this area of class action litigation. See Dkt. 450 at 3. Class
Counsel estimates that the average claim will he approximately $1000, and that the highest claims in the
settlement will be closer to $10,000. However, given the pro rata distribution model, until all previously
deficient claims are processed and either approved or denied, these figures cannot be calculated with
certainty.
III.

Legal Standard

Approval of a proposed class action settlement is governed by Federal Rule of Civil Procedure
23(e). “[T]he 2018 amendment to Rule 23(e) establishes core factors district courts must consider when
evaluating a request to approve a proposed settlement.” Zamora Jordan v. Nationstar Mortg., LLC, 2019
WL 1966112, at *2 (E.D. Wash. May 2,2019).

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 3 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal.,

Rule 23(e) now provides that the Court may approve a class action settlement only after a
hearing and only on a finding that it is fair, reasonable, and adequate after considering whether:
(A) the class representatives and class counsel have adequately represented the class;
(B) the proposal was negotiated at arm's length;
(C) the relief provided for the class is adequate, taking into account:
(i) the costs, risks, and delay of trial and appeal;
(ii) the effectiveness of any proposed method of distributing relief to the class,
including the method of processing class-member claims;
(iii) the terms of any proposed award of attorney's fees, including timing of
payment; and
(iv) any agreement required to be identified under Rule 23(e)(3); and
(D) the proposal treats class members equitably relative to each other.
Fed. R. Civ. P. 23(e)(2). “Under Rule 23(e), both its prior version and as amended, fairness,
reasonableness, and adequacy are the touchstones for approval of a class-action settlement.” Zamora,
2019 WL 1966112, at *2. “The purpose of the amendment to Rule 23(e)(2) is [to] establish a consistent
set of approval factors to be applied uniformly in every circuit, without displacing the various lists of
additional approval factors the circuit courts have created over the past several decades.” Id. Factors that
the Ninth Circuit has typically considered include (1) the strength of plaintiffs' case; (2) the risk,
expense, complexity, and likely duration of further litigation; (3) the risk of maintaining class action
status throughout the trial; (4) the amount offered in settlement; (5) the extent of discovery completed
and the stage of the proceedings; and (6) the experience and views of counsel. Hanlon v. Chrysler Corp.,
150 F.3d 1011,1026 (9th Cir. 1998); Churchill Vill., L.L.C. v. Gen. Elec., 361 F.3d 566, 575 (9th Cir.
2004).
“While the Ninth Circuit has yet to address the amendment to Rule 23(e)(2) ... the factors in
amended Rule 23(e)(2) generally encompass the list of relevant factors previously identified by the
Ninth Circuit.” Zamora, 2019 WL 1966112, at *2. “The goal of this amendment is not to displace any
factor, but rather to focus the court and the lawyers on the core concerns of procedure and substance that
should guide the decision whether to approve the proposal.” Fed. R. Civ. P. 23(e)(2) advisory
committee's note to 2018 amendment. “Accordingly, the Court applies the framework set forth in Rule

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 4 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal.,

23 with guidance from the Ninth Circuit's precedent, bearing in mind the Advisory Committee's
instruction not to let ‘[t]he sheer number of factors’ distract the Court and parties from the ‘central
concerns’ underlying Rule 23(e)(2).” In re Extreme Networks, Inc. Securities Litigation, 2019 WL
3290770, at *6 (N.D. Cal. July 22,2019); see also Graves v. United Indus. Corp., 2020 WL 953210, at
*4 (C.D. Cal. Feb. 24, 2020).

IV.

Analysis
a. Class Counsel have adequately represented the Class.

The Court finds that Class Counsel and the Class Representatives have adequately represented
the class during the course of litigation. The Class Representatives were each deposed during this
litigation, and Class Counsel prevailed on two motions for class certification and a dispositive motion
with regard to liability at summary judgment. Class Counsel conducted extensive discovery into the
conditions in which strip searches occurred at CRDF, held a large number of depositions, and hired
expert witnesses for multiple discrete issues relevant to establishing liability. See Dkt. 410 at 50-52
(summarizing litigation efforts of Class Counsel in table form). Class Counsel, in conjunction with JND,
have also facilitated substantial notice and outreach to the relatively disparate and sometimes difficult to
contact class of more than 94,000 individuals, which has resulted in a relatively high claims rate of
between 33% and 40%, pending final verification of deficient claims forms. Dkt. 451 at 6-7. Their
conduct both during litigation and after settlement was reached was adequate in all respects, and
supports approval of the Settlement Agreement.
b. The settlement was negotiated at arm’s length.
The Court finds that this settlement was clearly negotiated at arm’s length and is the product of
(lengthy) non-collusive negotiation between Class Counsel and Defendants. The parties reached a
settlement agreement following three full days of in-person settlement conferences before the Hon.
George H. King (Ret.). Dkt. 450 at 1. Settlement negotiations began only after the Court granted
summary judgment on liability for Plaintiffs, and lasted more than two years before the parties reached a
final agreement. The case was litigated by the parties for approximately six years prior to settlement

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 5 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2: lO-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal.,

negotiations being initiated in earnest. This course of proceeding strongly suggests a non-collusive
settlement has been reached.
While not necessary for approval because this class has previously been certified by the Court,
Dkt. 327, the Court additionally notes that the settlement agreement does not contain (1) a
disproportionate distribution of the settlement to Class Counsel (any fee award is subject to the Court’s
discretion), (2) a clear sailing arrangement for separate payment of attorney’s fees, or (3) a reversion for
unclaimed funds to the defendant. See In re Bluetooth Headset Prod. Liab. Litig. 654 F.3d 935, 946-47
(9th Cir. 2011) (instructing district courts to scrutinize settlement agreements for “subtle signs” that
class counsel have permitted self-interest to “infect” the negotiations).
c. The reliefprovidedfor the class is adequate
To determine whether the relief provided for the class is adequate, courts must consider: (i) the
costs, risks, and delay of trial and appeal, (ii) the effectiveness of any proposed method of distributing
relief to the class, (iii) the terms of any proposed award of attorney's fees, and (iv) any side agreement
required to be identified under Rule 23(e)(3). Fed. R. Civ. P. 23(e)(2)(C).
The Court finds that each of these factors favors granting final approval to the settlement. The
Court granted summary judgment to the class solely on liability— no clear procedure had been
developed to present the damages claims to a jury on a classwide basis given the relative circumstances
of the different class members across the seven year period. See Dkt. 327 at 8 (re-certifying the class
solely with regard to liability under Rule 23(c)(4) and noting that individual damages calculations will
be necessary to reach a final conclusion of the litigation). The class faced the possibility that no
workable arrangement for establishing classwide damages would be developed, as well as the possibility
that any final judgment would lead to reversal on appeal. Moreover, the Court finds that this settlement
is fair with respect to $53 million figure given the size of the class, an issue discussed in more detail in
the Court’s accompanying analysis of Class Counsel’s motion for attorney’s fees. See infra Part 2.II.a.i.
The Court finds it sufficient to note here that both the total dollar figure of the settlement fund and the
average recovery per class member are in line with similar large-scale settlements involving strip
searches at detention facilities. See Dkt. 410 at 29-36 (summarizing strip search settlements reviewed by
the Court).

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 6 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal.,

The court addresses the method of distributing relief (here monetary claims) in the sections
below regarding equitable treatment of class members, and finds it an effective method for distributing
relief given the facts of this case. The proposed fee award provided by the Settlement Agreement is
subject to the Court’s discretion and is addressed at length in the accompanying Order granting Class
Counsel attorney’s fees. Finally, no side agreements that must be identified under Rule 23(e)(3) have
been disclosed by the parties for the Court’s consideration. The Court finds that the relief provided by
the settlement agreement is adequate for the purposes of Rule 23(e)(2)(C)
d. Class members are treated equitably.
The Court also finds that the settlement agreement treats class members equitably. The Court has
previously discussed and approved of the points-based distribution formula as an appropriate manner of
approximating the severity of the constitutional injuries suffered by individual class members. See Dkt.
394 at 12. The Court finds that this formula appropriately seeks to provide more substantial
compensation to class members who experienced more frequent searches, and class members who
experienced searches in harsher conditions. Dkt. 395-1 at 10-12. It also ensures that those individuals
who were searched very frequently receive the highest awards within the settlement class. The $200
minimum claim size is a reasonable figure to incentivize class members to make the effort to participate
and submit claim forms, and ensures that as large a fraction of the class participate in the settlement as
possible.
e. Otherfactors not expressly included in Rule 23(e)(2) favorfinal approval as well
The amendments to Rule 23 do “not ‘displace any factor’ previously announced by the Ninth
Circuit, but instead ‘focus the court and the lawyers on the core concerns of procedure and substance
that should guide the decision whether to approve the proposal.’” Shin v. Plantronics, Inc., 2019 WL
2515827, at *4 (N.D. Cal. June 17,2019); see Advisory Committee Notes, Fed. R. Civ. P. 23, subdiv.
(e)(2) (2018). While the Court believes that its previous analysis has addressed all the other factors the
Ninth Circuit has previously instructed district courts to consider at final approval, it also notes that two
additional factors not discussed above also favor final approval. See Churchill Village, L.L.C. v. General
Electric, 361 F.3d 566,575 (9th Cir. 2004) (citing Hanlon, 150 F.3d at 1026) (citing “the presence of a

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 7 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal.,

8/11/2020

governmental participant and “the reaction of the class members” as relevant factors in analyzing class
settlements). First, the County is a party to this settlement, and supports the proposed settlement.
Second, the reaction of the class supports approval of the settlement— more than 40,000 claims have
been submitted, approximately 30,000 will be approved given JND’s projections, and only twelve
individuals (setting aside standing issues that may further reduce that number) have expressed objections
to the settlement agreement.
f. Incentive payments to class representatives
“[Njamed plaintiffs, as opposed to designated class members who are not named plaintiffs, are
eligible for reasonable incentive payments.” Staton v. Boeing Co., 327 F.3d 938,977 (9th Cir. 2003).
“Incentive awards are discretionary ... and are intended to compensate class representatives for work
done on behalf of the class, to make up for financial or reputational risk undertaken in bringing the
action, and, sometimes, to recognize their willingness to act as a private attorney general.” Rodriguez v.
W Pub. Corp., 563 F.3d 948,958-59 (9th Cir. 2009).
The settlement agreement calls for incentive payments of $10,000 to nine different lead
plaintiffs, for a total of $90,000. Dkt. 395-1 at 9. The Court finds these payments, individually and in
total, are appropriate given the overall settlement of $53 million. As the parties note, the large number of
lead plaintiffs is justifiable given the need for some lead plaintiffs to have been in custody in order to
seek the injunctive relief the class previously sought, and to represent different subclasses created at
various points in this litigation. Dkt. 449 at 23-24. Lead plaintiffs were also required to disclose intimate
details of their experiences to support their claims at their depositions. Id. The Court finds these
incentive payments to be reasonable and not disproportionate given the expected average claim of
approximately $1000 for unnamed class members, and the fact that the $90,000 constitutes a very small
fraction of the total settlement amount of $53 million.
g. Objections raised by class members
Having analyzed the specific factors articulated in Rule 23(e)(2), the Court now addresses
objections made by class members. JND received a total of five objections, and the Court and Class

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 8 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., et al.,

Counsel also received letters from individual class members expressing objections as well. See Dkt. 4501 through Dkt. 450-12, excluding Dkt. 450-11 (collecting various objections); see also Dkt. 461
(additional letter received by the Court from Tanya Woods).
i. Concerns beyond the reach of this Court.
Because of the widespread publication of the Class Notice in an attempt to ensure that as many
class members as possible submit claims, a number of individuals who do not appear to be eligible for
participation in the class have lodged objections stating that they were strip searched at CRDF before or
after the class period of March 5,2008 to January 1,2015. See Dkt. 450, Ex. B, C, D; Dkt. 461. At
summary judgment, Defendants represented to the Court that strip searches were not being used in any
substantial manner after January 2015. The Court relied on this representation in dismissing the claims
for classwide injunctive relief. Class Counsel state that while they have heard “occasional complaints”
regarding strip searches, they have no information that would suggest any widespread course of strip
search use after January 2015. Dkt. 449 at 12-13.
The Court finds that (setting aside the standing issue that the Court will discuss later) these
objections cannot be given substantial weight with regard to final approval of the class settlement. The
Court previously made a finding based on substantial evidence that the appropriate period for
consideration of these constitutional claims on a classwide basis ended in January 2015, and individual
objections based on allegedly unconstitutional searches that occurred after the end of the class period are
not relevant to whether a settlement addressing claims arising from March 2008 to January 2015 should
be approved. Similarly, alleged searches that occurred before the class period began (and are time-barred
under California’s two-year statute of limitations for § 1983 claims) are not relevant to the Court’s
decision to approve or deny final approval of the settlement before the Court.
ii. Individualized objections to claim recovery.
Other objectors raise individualized concerns with regard to their personal experiences being
strip searched, or argue that because of those circumstances, they deserve a larger portion of the
settlement fund than they are entitled to under the points-based distribution formula in the Settlement
Agreement. See Dkt. 450, Ex. E, F, G, L (Garcia late opt-out and objection). The Court recognizes that

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 9 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., et al.,

individual class members may feel strongly that their individual experiences deserve a higher level of
monetary compensation, but a more detailed, subjective case-by-case assessment, in a class of
approximately 94,000 individuals, would not be feasible and would both erode the settlement fund
through additional administrative fees and delay final distribution of the funds to class members. To the
extent that these individuals feel that this settlement is inadequate, their proper remedy would be to optout, as a small number of other class members have done, an option which is clearly provided in the
email and first-class mail notice distributed by JND. See Dkt. 451, Ex. A, B, C, and D. Each form of
notice also clearly states the approximate range of the claim recovery, with a $200 minimum and the
potential for “thousands” of dollars for individuals who endured many searches. Id. As discussed above,
the Court finds that the points-based distribution formula is an equitable form of “rough justice,”
intended to approximate the relative severity of the constitutional violations each class member received,
but that it cannot perfectly compensate each class member based on their subjective assessment of the
extent of their injuries. In re Volkswagen "Clean Diesel" Mktg., Sales Practices, & Prod. Liab. Litig.,
895 F.3d 597,611 (9th Cir. 2018) (internal citation and quotation marks omitted). These objections do
not alter the Court’s view of the Settlement Agreement.
iii. Attorney’s fees.
A number of objections were lodged to the size of the attorney’s fees proposed in the Settlement
Agreement. See Dkt. 450, Ex. H, Ex. I. While only a limited number of such objections have been made,
and some of these objections misinterpret the maximum size of the proposed attorney’s fee award
possible under the Settlement Agreement, the Court has considered these objections in conjunction with
its independent duty to assess the reasonableness of any proposed fee award. See Fed. R. Civ. P. 23(h).
The fee award structure in the Settlement Agreement is entirely dependent on this Court’s approval and
determination of the appropriate award in these circumstances. See Dkt. 395-1 at 18. The non-binding
structure of the attorney’s fee award provided in the Settlement Agreement does not raise concerns with
respect to whether final approval of the settlement should be granted.
iv. Ms. Shorter’s objections.
The Court first notes that it is unclear whether Ms. Shorter, who is a class member but has optedout of the settlement to pursue her own individual claims, Dkt. 429, has standing to object to the class

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 10 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2: lO-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. Sheriff Leroy D. Baca, etc., et al.,

settlement. See Newberg on Class Actions §13:23 (5th ed.), 13:23 Standing to object—Opt-outs,
(“[cjlass members who opt out of the class at certification or at settlement are no longer considered class
members, and hence Rule 23 does not give them standing to object to the settlement”); see also Glass v.
UBS Financial Services, Inc., 2007 WL 221862, *8 (N.D. Cal. 2007) affd 331 Fed. Appx. 452 (9th Cir.
2009) (district court held that objector who opted-out lacks standing to object, objector not referenced in
Ninth Circuit decision affirming district court). Nevertheless, the Court will construe her objections as
equivalent to an amicus brief and address them below.
Ms. Shorter’s objections do not raise issues the Court finds compelling. Dkt. 452; Dkt. 429. Her
argument that settlement recovery is “miniscule” and her assertion that certain individual class members
could instead receive six or seven figure recoveries if they proceeded individually is largely speculative,
and does not properly focus on the best result for the class as a whole. Moreover, the Settlement
Agreement expressly permitted up to 250 members of the class to opt-out and pursue individual
damages— the fact that so few class members have chosen to do so suggests that the settlement
represents a reasonable recovery for class members, and that they have little appetite for pursuing these
claims individually. The Court also gives substantial weight to Class Counsel’s opinion regarding the
value of the class claims on this topic, given their specific expertise with this manner of large-scale
prisoner litigation and extensive period of negotiation with the County. See Dkt. 410 at 3-10, 81-83. The
Court also expressly declined to certify a damages class in its prior Orders, and absent a settlement
would have required individualized damages determination in order for class members to take these
claims to trial.
Ms. Shorter’s proposal that JND should instead calculate the points for each individual member
prior to the opt-out deadline, and permit class members to go through a second opt-out period after
learning their specific point allocation (and resulting monetary recovery) would cause a substantial and
unnecessary delay in distribution of funds and incur additional administrative expenses. Her request that
independent class counsel be appointed to consult (free of charge) with class members on an individual
basis to determine whether they should pursue an alternative course of legal action would erode the
funds available to the class and is unsupported by caselaw on Rule 23 regarding circumstances that
require appointment of independent counsel. The Court does not find that the issues she has raised
regarding the contents of the Class Notice, or the ability of class members to gain access to the full

Initials of Preparer
PMC
C IV1I. MINUTES - GENERAL

Page 11 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal,

8/11/2020

Settlement Agreement are well-founded and finds that in all aspects Class Counsel’s efforts to ensure
class members have notice of the settlement and submit claims has been adequate.
h. Administrative Issues
i. Opt-Outs
Six individuals have requested to opt-out of the class settlement. One of the opt-out notices was
received late. Dkt. 450-12. The Court acts in its discretion pursuant to the Settlement Agreement to
permit this late opt-out, and these individuals are listed below:
1.
2.
3.
4.
5.
6.

Valerie Rehling
Jessica Rivera Hernandez
Lyubox V. Shur a.k.a “Luba Shur”
Pik Yue
Tammy Lynn Dayton
Natalie Elizabeth Garcia
ii. Administrative issues arisingfrom COVID-19 and class member letters to the
Court.

The Court also makes note of an administrative issue that arose in the course of the settlement
approval process. After notice was mailed to the class, a number of class members sent letters to the
Court directly, some expressing objections to the settlement and others describing their experiences,
sometimes including personal details regarding the conditions they endured at CRDF. The Court’s
administrative docketing system interpreted these letters as appearances in the lawsuit, and filed a
number of these letters on the docket, resulting in documents filed by the parties in this lawsuit being
sent to those class members and their letters being made public. Class Counsel filed an ex parte motion
to correct the record and strike accounts of personal experiences that included personal details and
personal identifying information that should not have been disclosed in this manner. Dkt. 426. The Court
granted this motion and struck each of the “appearances” that had been erroneously entered based on

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 12 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal.,

these letters, after assessing each one and determining that it could not be plausibly considered an
objection to the settlement. Dkt. 436.
In order to prevent future inadvertent disclosure of personal information, the Court instituted
additional measures to review any new letters received in this lawsuit prior to filing on the docket. Since
March 2020, the Court has reviewed each new letter mailed to the Court in camera and if it could
plausibly be construed as an objection to the settlement, ordered it filed on the docket. Other letters
sharing detailed personal information, seeking to be included in the claims process, or raising concerns
related to CRDF recordkeeping relevant only to specific class members were ordered forwarded to Class
Counsel to address with JND’s assistance. The Central District issued General Order 20-05 regarding
COVID-19 shortly after the Court adopted this policy, and many of the Court’s administrative staff
transitioned to remote work. As a result, the Court learned only upon reviewing briefing in advance of
the final approval hearing that certain letters had not been properly filed on the docket as objections,
although they had previously been reviewed and sorted by the Court. The Court has since corrected this
internal administrative error. See Dkt. 459; Dkt. 460; Dkt. 461; but see Dkt. 462 (expressing a desire to
be notified of future proceedings, which the Court entered as a notice of appearance rather than an
objection). All other letters, which cannot reasonably be construed as objections to the settlement and
generally seek inclusion in the class or to share personal experiences, have now been delivered to Class
Counsel.2
iii. Late Claims
Plaintiff state that there have been an additional 129 late claims filed since the June 4 cutoff date
in the settlement agreement, and request that these late claims be approved by the Court. Dkt. 449 at 4.
Section II f 29 of the revised Settlement Agreement gives the Court the ability approve any late claims
that are “filed prior to the Final Approval Hearing.” Dkt. 395-1. The Court finds it appropriate given the
potential challenges these particular class members (many of whom are currently incarcerated) may

2 The Court also instructs the parties that pursuant to its equitable powers, the Court finds that any individuals who would
otherwise have qualified for the settlement recovery but for the delay in notice or approval resulting from the administrative
issues described in this subsection should be deemed members of the class regardless of when their claim is ultimately
processed, and are therefore entitled to their pro rata share of the settlement fond.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 13 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, et ah, v. SheriffLeroy D. Baca, etc., etal,

have faced in receiving timely notice and submitting claims, to exercise this power. The Court approves
any additional claims filed prior to the final approval hearing, which was held on July 20,2020.
V.

Conclusion

The Court GRANTS final approval to the settlement agreement proposed by the parties. It also
adopts by reference the findings and instructions contained in the following sections of the Proposed
Order submitted by Plaintiffs: Section IV, Section VI, Section XII, Section XIII, and Section XIV,
except to the extent they directly conflict with the terms of this Order. The parties and JND are
instructed to proceed with the implementation of the Settlement Agreement as written.
Motion for Attorney’s Fees and Costs
I.

Legal Standard

In awarding attorney’s fees under Federal Rule of Civil Procedure 23(h), “courts have an
independent obligation to ensure that the award, like the settlement itself, is reasonable.” In re Bluetooth
Headset Prods. Liab. Litig., 654 F.3d at 941. In the Ninth Circuit, there are two primary methods to
calculate attorney’s fees: the lodestar method and the percentage of the fund approach. Id. at 941-42.
Under the percentage of the fund approach, the attorney’s fees equal some percentage of the common
settlement fund; in the Ninth Circuit, the benchmark percentage is 25%. Id. at 942. The lodestar method
requires “multiplying the number of hours the prevailing party reasonably expended on the litigation (as
supported by adequate documentation) by a reasonable hourly rate for the region and for the experience
of the lawyer.” Id. at 941.
A district court has discretion in calculating fees, or approving a fee request, but it “abuses that
discretion when it uses a mechanical or formulaic approach that results in an unreasonable reward.” In
re Mercury Interactive Corp. Sec. Litig., 618 F.3d 988,992 (9th Cir. 2010) (internal quotation marks
omitted). One way that a court may demonstrate that its use of a particular method or the amount
awarded is reasonable is by conducting a cross-check using the other method. For example, a crosscheck
using the lodestar method “can ‘confirm that a percentage of recovery amount does not award counsel

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 14 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal.,

an exorbitant hourly rate.’” In re Bluetooth, 654 F.3d at 945 (quoting In re Gen. Motors Corp. Pick-Up
Truck Fuel Tank Prods. Liab. Litig., 55 F.3d 768, 821 n. 40 (3d Cir. 1995)).
Because the relationship between class counsel and class members turns adversarial at the fee­
setting stage, district courts assume a fiduciary role that requires close scrutiny of class counsel’s
requests for fees and expenses from the common fund. Vizcaino v. Microsoft Corp., 290 F.3d 1043,
1052 (9th Cir. 2002); see also In re Mercury Interactive Corp. Sec. Litig., 618 F.3d 988, 994 (9th Cir.
2010) (“As a fiduciary for the class, the district court must ‘act with a jealous regard to the rights of
those who are interested in the fund in determining what a proper fee award is.”’ (internal quotation
marks omitted) (quoting In re Wash. Pub. Power Supply Sys. Sec. Litig., 19 F.3d 1291,1302 (9th Cir.
1994))); Newberg on Class Actions § 13:40 (5th ed. 2012).
II.

Analysis

As is customary in large-figure class action settlements, the Court acts within its discretion to
first analyze the fee request under the percentage of the fund approach, and then cross-check this
analysis with reference to the provided lodestar figures submitted by Class Counsel, to ensure the award
is reasonable. See Acosta v. Frito-Lay, Inc., 2018 WL 2088278, at *11-12 (N.D. Cal. May 4,2018);
Smith v. Am. Greetings Corp., 2016 WL 362395, at *8-9 (N.D. Cal. Jan. 29,2016).
a. Percentage of the Fund
Plaintiffs’ motion for attorney’s fees seeks 33.33% of the total settlement fund, for a total fee
award of $17,490,000.00 to be paid to Class Counsel. Dkt. 409. In the Ninth Circuit, the “benchmark”
figure for fee award analysis under the percentage of a common fund approach is 25%. See In re
Bluetooth, 654 F.3d at 942; see also In re Hyundai & Kia Fuel Econ. Litig., 926 F.3d 539, 570 (9th Cir.
2019). However, Class Counsel argues that “nearly all common fund awards range around 30%. Dkt.
409 at 8-9. The Court disagrees and finds that the benchmark for percentage of a common fund in the
Ninth Circuit remains 25%. See In re Easysaver Rewards Litig., 906 F.3d 747, 754 (9th Cir. 2018)
(noting that a disputed fee award fell below the “25% benchmark typically used in our circuit”); In re
Hyundai, 926 F.3d at 570 (same);

Initials of Preparer
PMC
CIVlI. MINUTES - GENERAL

Page 15 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal.,

8/11/2020

The Ninth Circuit has indicated various factors relevant for consideration of an upwards
percentage fee adjustment which include (1) the extent to which class counsel achieved exceptional
results for the class; (2) whether the case was risky for class counsel; (3) whether counsel’s performance
generated benefits beyond the cash settlement fund; (4) the market rate for the particular field of law; (5)
the burdens class counsel experienced while litigating the case; (6) and whether the case was handled on
a contingency basis and its duration. See Vizcaino v. Microsoft Corp., 290 F.3d 1043, 1048-50 (9th Cir.
2002); see also In re Optical Disk Drive Products Antitrust Litigation, 2020 WL 2507359, at *6 (9th
Cir. May 15,2020).
The Court will generally apply these factors in a manner which it believes effectively addresses
the relevant circumstances in this class settlement and litigation. The Court will not address Class
Counsel’s skill and experience (which it finds are more properly analyzed in justifying the lodestar
cross-check by establishing an appropriate rate for services rendered) or the reaction of the class (which
the Court finds relevant only to the final approval decision analyzed above). The Court agrees with
Class Counsel that the “complexity of the litigation” rather than its “riskiness” for Class Counsel better
describes that relevant factor. See Dkt. 409 at 3. Because the Ninth Circuit has repeatedly emphasized
that these factors are not “exhaustive,” the Court also acts within its discretion to consider other factors
more unique to this lawsuit. See In re Optical Disk Drive, 959 F.3d at 930 (“Ultimately, district courts
must ensure their fee awards are supported by findings that take into account all of the circumstances of
the case”) (quotations omitted).
i. Exceptional Result Achieved
Class Counsel argues that the result embodied in this settlement is “exceptional,” and strongly
justifies an upwards adjustment to the 25% benchmark. Dkt. 409 at 9-10. In support of this argument,
Class Counsel provides in its supporting declaration a survey of strip search settlements exceeding $25
million, and asserts that the $53 million figure in this settlement is an “exceptional” result. See Dkt. 409
at 9; Dkt. 410 at 28-36 (presenting and analyzing similar strip search settlements). Class Counsel also
argues that the average claim size (estimated at $1500 at the time the motion was filed, although revised
to $1000 by the time of the final approval hearing due to a high claims rate) also shows that this was an
exceptional result for class members. Dkt. 409 at 10.

o

Initials of Preparer
PMC

It

v*

h

CIVIL MINUTES - GENERAL

Page 16 of 24

5
j

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, et al., v. SheriffLeroy D. Baca, etc., et ah,

The Court agrees that this settlement represents a good result for class members, as evidenced by
its prior Order granting final approval of the settlement. However, it does not find that it constitutes such
an exceptional result as to justify an upwards adjustment from the 25% benchmark. Class Counsel
emphasizes the dollar value of the settlement ($53 million) in comparison with other strip search
settlements. But many of these settlements were created more than a decade ago, and as a result, the
inflation-adjusted values of those settlements are substantially different from the value of the $53
million in 2020. The Court also notes that Class Counsel is generally conscious of inflation, and in
justifying its lodestar figure utilizes a 3% annual adjustment to compare the requested hourly fee rates to
historical hourly fee rates granted in similar cases. Dkt. 410 at 76-77. Applying the same 3% adjustment
rate to the comparison settlements presented by Class Counsel, the Court reaches the following
approximate inflation-adjusted figures:
• Williams v. Block, (2001) $47,344,000 in 2020 dollars
• Tyson v. City ofNew York (2001) $87,675,000 in 2020 dollars
• McBean v. City ofNew York (2006) $49,915,000 in 2020 dollars
• Craft v. County ofSan Bernardino (2008) $36,356,000 in 2020 dollars
• Young v. County of Cook (2010) $73,915,000 in 2020 dollars
Having adjusted those settlement figures for inflation, the Court finds that the $53 million settlement
here is a good result, but not such an exceptional result as to justify an upwards adjustment to the 25%
benchmark.
The Court does not find that the average size of class member recovery demonstrates that this
settlement constitutes an exceptional result relative to similar settlements, because average recovery
figures are often subject to circumstances outside the control of Class Counsel, and the claims rates for a
settlement can vary dramatically. For example, at the time Class Counsel filed this motion, they asserted
that the average claim was likely to be $1500, but as a result of a high claims rate by class members, the
average is now estimated to be closer to $1000 per class member. Compare Dkt. 409 at 10 with Dkt. 449
at 15. This illustrates the difficulties that arise from attempting to compare these large-dollar settlements
with large numbers of class members and unpredictable claims rates based on average claim recovery or

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 17 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cV-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., etal.,

total class members. The Court does not find that the average size of the class member recovery here
favors an upwards adjustment to the 25% benchmark.
ii. Complexity ofthe Litigation
The Court does not believe that this factor favors an upwards adjustment to the lodestar. Class
Counsel are specialists in this precise intersection of civil rights law and class action litigation,
specifically class action prisoner litigation, and many of the complexities of these lawsuits are issues
they are highly familiar with and have repeatedly litigated. See generally Dkt. 410 at 5-9. Class Counsel
cite Monell issues as adding substantial complexity to this case, but the dispositive issue that this
settlement ultimately arose from was what LASD indisputably acknowledged was a “policy or
procedure” of LASD— in this Court’s summary judgment Order for Plaintiffs, Monell is not even
analyzed. See generally Dkt. 361. The complexity of the ultimately unsuccessful claims Class Counsel
pursued regarding other allegations of constitutional violations (based on verbal abuse, outside viewers
present during searches, and cleanliness) is not relevant to analysis of this factor. See Amador v. Baca,
299 F.R.D. 618,626-27 (C.D. Cal. 2014); Amador v. Baca, 2014 WL 10044904, at *7 (C.D. Cal. Dec.
18,2014) (declining to reconsider the class certification analysis relevant to abuse, privacy, and
sanitation subclasses).
The Court recognizes that intervening Supreme Court precedent altered the legal standard
regarding the presumed constitutionality of body cavity searches in this context. See Florence v. Bd. of
Chosen Freeholders of Cty. of Burlington, 566U.S. 318 (2012). But it also notes that prior Ninth Circuit
precedent was consistent with the outcome of Florence. See Bull v. City & County of San Francisco, 595
F.3d 964, 975 (9th Cir. 2010). Additionally, while Florence clearly held that use of visual body cavity
(“VC”) searches of inmates entering the general population was permissible without reasonable
suspicion, it also acknowledged that “substantial” evidence could show that in practice, such policies
may constitute an “unnecessary or unjustified” response to jail security concerns. Florence, 566 U.S. at
323, 334; see also Dkt. 361 at 7-8 (discussing the standard articulated in Bull and Florence). Class
Counsel’s efforts in discovery and in arguing for liability were therefore straightforward, although laborintensive, but not especially complex. Their core argument was that the manner in which LASD’s policy
was applied was unreasonable given the circumstances and other feasible options available. See
generally Dkt. 346 (Plaintiffs’ motion for summary judgment). The Court granted summary judgment to

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 18 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:lO-cv-01649-SVW-JEM

8/11/2020

Mary Amador, et al., v. SheriffLeroy D. Baca, etc., etal.,

Plaintiffs with regard to liability based on a finding that clearly feasible measures to protect class
members’ privacy during VBC searches were available, that LASD was aware of these measures, and
that LASD had no reasonable justification for failing to do so. See Dkt. 361.
The Court also finds that some of the asserted complexity of this case was the result of issues
Class Counsel could have avoided. The decision to decertify the class made by the Court in July 2016
was made upon discovering while reviewing summary judgment briefing that significant changes had
been made to the VBC search procedure during the then-ongoing class period, and that injunctive relief
would no longer be appropriate. See Dkt. 312 at 5-6. In the briefing on summary judgment, Class
Counsel essentially acknowledged that this relief was moot. Id. at 4 n.4 (summarizing arguments raised
in Plaintiff’s supplemental briefing). While the Court did ultimately recertify the class, the fact that these
policy changes were not brought to the Court’s attention until summary judgment briefing began in
December 2015 leads the Court to find that complexities cited by Class Counsel arising from the
decertification do not favor a finding that the fee award requires an upwards adjustment. See Dkt. 409 at
6 n.3 (arguing that the Court’s decertification posed additional challenges for Class Counsel). Similarly,
a recurring theme at certain points in this litigation has been Class Counsel’s enthusiasm for
“attempt[ing[ to re-litigate matters already decided in prior orders.” See Dkt. 312 n.3 (raising the
possibility of sanctions for re-arguing issues regarding commonality of subclasses that had already been
decided). Additional effort and motion practice linked to these attempts does not demonstrate
complexity supporting an upwards adjustment to the 25% benchmark.
As previously discussed, the contours of the legal analysis here were clearly defined by Ninth
Circuit and Supreme Court precedent, and exclusively related to an area where Class Counsel specialize
heavily. Class Counsel’s litigation efforts did not require comprehensive analysis of disparate state law
on specific discrete issues, or a lengthy appeals process prior to settlement. See In re Anthem, Inc. Data
Breach Litig., 2018 WL 3960068, at *13 (N.D. Cal. Aug. 17,2018) (finding substantial complexity
supporting an upwards adjustment to the benchmark when class counsel addressed technical
cybersecurity issues while asserting claims under the law of fifty different states); In re High-Tech
Employee Antitrust Litig., 2015 WL 5158730, at *10 (N.D. Cal. Sept. 2, 2015) (complexity favored
upwards adjustment where class counsel was repeatedly required to defend the action on interlocutory
and mandamus appeal). The Court finds that this factor does not support an upwards adjustment to the
25% benchmark.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 19 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2: 10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, et al., v. SheriffLeroy D. Baca, etc., et al.,

Hi. Burden ofLitigating on Class Counsel
While the litigation of this case lasted approximately ten years, the Court notes that it has not
been actively litigated across this entire time period. First, the Court stayed the action for approximately
six months pending the Supreme Court’s decision in Florence. See Dkt. 145; Dkt. 152. Following the
June 2017 order granting Plaintiffs’ motion for summary judgment, the Court moved the case to the
inactive calendar pending negotiation of a settlement. Dkt. 364. The case remained on the inactive
calendar for approximately 2 years before the parties notified the Court of a tentative settlement
agreement. Dkt. 384. The Court acknowledges that Class Counsel expended significant time and energy
during this period negotiating the settlement. See Dkt. 410 at 64-66 (describing Class Counsel’s
mediation and settlement efforts). However, it finds that following a grant of summary judgment in a §
1983 case, where attorney’s fees are granted as of right to a prevailing plaintiff, 42 U.S.C. § 1988, the
risk to Class Counsel based on the contingency nature of its representation of the class was substantially
reduced beyond that point. Accordingly, it finds that the relevant period of active litigation for purposes
of analyzing the “burden” on Class Counsel is closer to seven years than to ten.
Class Counsel indisputably still experienced a significant burden in the course of litigating this
case on a contingency fee basis for a substantial period of time. Class Counsel documents almost 9000
hours of billed time by attorneys, paralegals, and law clerks in the course of this litigation. See Dkt. 410
at 84-85 (consolidating billing by Class Counsel and staff). Class Counsel also submits itemized costs of
approximately $369,000 incurred during the course of litigation, and not recoverable until settlement. Id.
at 111-12; Dkt. 410-5 (additional records of costs incurred). Both the costs advanced in this litigation
and the substantial investment of hourly work incurred by Class Counsel favor an upwards adjustment to
the lodestar.
iv. Benefits Generated Beyond Settlement Fund
The Court finds that this factor favors Class Counsel’s request for an upwards adjustment. After
this lawsuit was filed in 2010, LASD made substantial changes to the search policies employed at CRDF
after the lawsuit was filed, first in 2011 and then in 2013. LASD ceased to employ strip searches for
inmates willing to be scanned by body scanners in 2015. Dkt. 410 at 66-68 (describing LASD policy
changes and emails produced in discovery referencing this lawsuit in adopting these changes). These

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 20 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal,

8/11/2020

changes ultimately mooted the need for continuing injunctive relief in this lawsuit. See Dkt. 312 at 5.
The settlement agreement does not make any provision for continuing injunctive relief. See generally
Dkt. 395-1. On this basis the Court finds that Class Counsel has clearly demonstrated that their efforts
have generated benefits for the class beyond those contained in the settlement fund.
v. Market Rate in this Area ofthe Law
The Court determines that the appropriate comparison for assessing the “market rate” in this area
of law is settlements of similar size to the $53 million settlement amount here. At slightly more than $50
million, the settlement agreement is at the lower edge of what courts have considered a “megafund,”
which the Ninth Circuit has not yet clearly defined. See In re Optical Disk Drive, 959 F.3d at 932-33
(noting that the Ninth circuit has not “identified a bright-line definition for megafund” but that a $124.5
million fund unquestionably is one); Nitsch v. DreamWorks Animation SKG Inc., 2017 WL 2423161
(N.D. Cal. June 5,2017) (defining megafunds as settlements exceeding $50 million); Craft v. Cty. ofSan
Bernardino, 624 F. Supp. 2d 1113,1127 (C.D. Cal. 2008) (same); but see Newberg on Class Actions §
15:81 (5th ed. 2012) (noting that “[mjost courts define mega-funds as those in excess of $100 million”).
Regardless of whether the settlement here should expressly be characterized as a “megafund,”
the Court follows other district courts in the Ninth Circuit in finding that a $53 million figure is
sufficiently large to weigh in favor of a downwards adjustment to the 25% benchmark. See Rodman v.
Safeway Inc., 2018 WL 4030558, at *4 (N.D. Cal. Aug. 23,2018) (citing Theodore Eisenberg, Geoffrey
Miller, & Roy Germano, Attorneys' Fees in Class Actions: 2009-2013, 92 N.Y.U. L. Rev. 937 (2017) in
support of the conclusion that a $42 million settlement falls in the second-highest decile of class action
settlements, and favors a “slight downward adjustment” from the 25% benchmark); Aichele v. City of
Los Angeles, 2015 WL 5286028, at *5 (C.D. Cal. Sept. 9,2015) (finding that in settlements between
$50-$ 100 million, “fees more commonly will be under the 25% benchmark”); Craft, 624 F. Supp. 2d at
1127 (finding that settlements above $50 million are often adjusted below 25%); cf. In re Anthem, 2018
WL 3960068, at *11-16 (N.D. Cal. Aug. 17, 2018) (finding even when multiple factors strongly
supported an upwards adjustment to the 25% benchmark, a slight increase to 27% in a megafund case
was appropriate). The Court finds that the “market rate” in class action settlements of this size in the
Ninth Circuit favors a downwards adjustment from the 25% benchmark.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 21 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-Ol649-SVW-JEM

8/11/2020

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal,

vi. Conclusion
Having analyzed and weighed each of the factors discussed above, the Court finds that a fee
award at the 25% benchmark is appropriate in these circumstances. Accordingly, given the $53 million
settlement fund, Class Counsel is entitled to a fee award of $13,250,000.
b. Lodestar Cross-check
To confirm an award's reasonableness through a lodestar cross-check, a court takes “the number
of hours reasonably expended on the litigation multiplied by a reasonable hourly rate.” Hensley v.
Eckhart, 461 U.S. 424, 33 (1983). “[T]he determination of fees ‘should not result in a second major
litigation’” and “trial courts need not, and indeed should not, become green-eyeshade accountants.” Fox
v. Vice, 563 U.S. 826, 838, (2011) (quoting Hensley, 461 U.S. at 437). Rather, the Court seeks to “do
rough justice, not to achieve auditing perfection.” Id. at 838.
The Court has reviewed the extensive documentation provided by Class Counsel in support of
their hours billed, and the hourly rates requested. See Dkt. 410 at 81-113. The Court finds that on the
whole, the hours billed and rates requested are generally reasonable, but it makes certain adjustments to
these figures discussed below.
First, the Court finds that the lodestar figure submitted by Class Counsel is somewhat inflated by
the fact Ms. Battles (one of the lead attorneys in the case for Kaye McLane Bednarski and Litt LLP, and
a 2008 law school graduate) seeks an hourly rate of $700/hr for the approximately 3100 hours she
incurred in litigating this action. Id. at 84. The Court finds that Class Counsel has adequately supported
her billing rate given her current level of experience. See id. at 99-101. However, based on Ms. Battles’
year of graduation from law school, a very substantial fraction of her hourly billings were incurred when
she would not have been qualified to bill at a rate remotely close to $700/hr. See generally Dkt. 410-3 at
124-271 (substantial fraction Ms. Battles’ work done in 2010, 2011,2012, and 2013). Because her
hourly rate for the first couple of years of the litigation would likely have been closer to one-half to twothirds the rate she now requests, die Court finds that applying a $700/hr rate across all of her billed hours
results in an inflated figure for her billings.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 22 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.
Title

Date

2:10-cv-01649-SVW-JEM

8/11/2020

Mary Amador, etal., v. SheriffLeroy D. Baca, etc., et al.,

Second, the Court notes that the hourly rate requested by Mr. Litt of $1200/hr is higher than the
majority of even the “adjusted” rates he presents (which contain a 3% inflation adjustment to prior year
fee awards he has received). Id. at 89. While upwards adjustments to hourly rates are common in legal
practice, none of the submitted fee awards for civil rights lodestars exceed $1150/hr (even for 2018 and
2019 fee awards to Mr. Litt). Id. The Court finds that Mr. Litt’s requested rate of $ 1200/hr is not entirely
supported by the evidence before the Court.
Finally, the Court notes that Class Counsel seeks $360/hr for work by a senior paralegal, Ms.
White, who billed approximately 10% of the total hours in this case. Id. at 84. While Class Counsel
presents adjusted fee rates based on prior awards to senior paralegals is past years that in some cases are
close to $360/hr (and in one case exceed it), most are significantly below that rate. The Court finds that
this hourly rate is also not adequately supported by Class Counsel’s submitted evidence and the Court’s
own experience with fee awards to paralegals.
The Court finds that the reasons discussed above justify a moderate “haircut” of 10% to the total
hourly billings by Mr. Litt, Ms. Battles, and Ms. White. See Moreno v. City ofSacramento, 534 F.3d
1106,1112 (9th Cir. 2008) (in lodestar calculations, a district court is permitted to impose a 10%
“haircut” even without a specific explanation for the reduction). The combined billings of these three
individuals, at $4,306,230, are therefore reduced by $430,623. See Dkt. 450 at 5-6 (final hourly billings
submitted in connection with final approval hearing). After subtracting this sum from the final lodestar
provided by Class Counsel of $5,709,924, the Court arrives at a final revised lodestar figure of
$5,279,301. See id. at 85. Given the Court’s determination that a fee award of $13,250,000 is
appropriate via the percentage of the fund approach, the Court finds that this award is equivalent to
granting a lodestar multiplier of approximately 2.5x the lodestar. The Court finds this to be wholly
reasonable, particularly in light of the data provided by Class Counsel’s expert, William Rubenstein. See
Dkt. 413 at 2,23 (finding an average lodestar multiplier of 2.2 in cases involving a common fund similar
in size to this settlement). It is also squarely in the top-half of lodestar multipliers given in large-dollar
class action settlements such as this one. See Vizcaino, 290 F.3d at 1051 n.6 (finding that in the Ninth
Circuit, multipliers generally range from one to four).
The Court finds that a cross-check of the lodestar multiplier against the percentage of the fund
award supports the Court’s finding that a 25% fee award is reasonable.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 23 of 24

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date

Case No.

2:10-cv-01649-SVW-JEM

Title

Mary Amador, etal, v. SheriffLeroy D. Baca, etc., etal.,

8/11/2020

c. Costs
An attorney is entitled to “recover as part of the award of attorney's fees those out-of-pocket
expenses that would normally be charged to a fee paying client.” Harris v. Marhoefer, 24 F.3d 16,19
(9th Cir. 1994) (citation omitted). To support an expense award, Class Counsel should file an itemized
list of their expenses by category and the total amount advanced for each category, allowing the Court to
assess whether the expenses are reasonable. Smith v. Am. Greetings Corp., 2016 WL 362395, at *9
(N.D. Cal. Jan. 29,2016) (citations omitted).
Class Counsel has submitted evidence adequately documented litigation costs of $379,839.79
incurred during conduct of this litigation. See Dkt. 410 at 111-12; Dkt. 410-5. These expenses are
properly categorized and reasonable in light of the course of litigation overall, with the majority of
expenses incurred hiring experts to assist in the litigation, and the rest of the costs consistent with
standard litigation practice in this area. The Court awards $379,839.79 in costs to Class Counsel.
III.

Conclusion

The Court GRANTS IN PART Class Counsel’s motion for attorney’s fees, awarding Class
Counsel $13,250,000 in attorney’s fees. The Court also GRANTS Class Counsel 379,839.79 in costs.

Initials of Preparer
PMC
CIVIL MINUTES - GENERAL

Page 24 of 24

APPENDIX I

Amador v. Baca, Not Reported in Fed. Supp. (2017)

2017 WL 9472901
Only the Westlaw citation is currently available.
United States District Court, C.D. California.
Maty AMADOR
v.
Leroy D. BACA, et al.
Case No. CV10-01649-SVW-JEM

I

Filed 06/07/2017
Attorneys and Law Firms
Flynn,
Attorney at Law,

, Kaye McLane Bednarski and Litt LLP, Pasadena, CA,
, Cynthia M. Anderson-Barker Law Offices,
, Mann and Cook, Los Angeles, CA, for Mary Amador.

, Law Office of Colleen

, Lawrence Beach Allen and Choi PC, Glendale, CA, for
Leroy D. Baca, et al.

Proceedings: IN CHAMBERS ORDER GRANTING PLAINTIFFS’ MOTION FOR SUMMARY JUDGMENT AND
GRANTING IN PART AND DENYING IN PART DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT [343] [346]
,U.S. DISTRICT JUDGE

I. INTRODUCTION
*1 Seven years ago, Plaintiffs filed this class action complaint alleging that Defendants instigated unconstitutional strip
search polices at Century Regional Detention Facility (“CRDF’) in Lynwood, California. On November 18, 2016, this Court
granted Plaintiffs’ renewed motion for class certification. Dkt. 327. The class period runs from March 1, 2008 to January 1,
2015. See id On December 19, 2016, Plaintiffs filed the operative Fourth Amended Complaint. Dkt. 334. On March 10,
claim that Defendants violated
2017, the parties filed cross motions for summary judgment as to Plaintiffs
the Fourth Amendment rights of female inmates who were ship searched at Bus Bay #3. Dkts. 343,346.
Plaintiffs do not challenge Defendants’ right to institute a blanket strip search policy against inmates without individualized
suspicion, since that issue has long been settled by the Supreme Court. See
claim.
Plaintiffs argue that the conditions of the search, executed without penological justification, give rise to their
Further, though the class certification order separates Plaintiffs into two classes and multiple subclasses. Plaintiffs argue that
the “core conditions” common to every class establishes their claim. The Court agrees, and GRANTS Plaintiff’s motion for
summary judgment. Accordingly, the Court DENIES Defendants’ motion on these grounds. Defendants also moved for
summary judgment against the individual and official capacity claims against individual defendants. The Court GRANTS
Defendants’ motion for summary judgment on claims against individual defendants.

Amador v. Baca, Not Reported in Fed. Supp. (2017)

The Court notes that the “core conditions” of the search are common to both classes and all subclasses. Therefore, members of a
subclass that may have experienced even harsher conditions, due to cold weather, menstruation while being searched, larger group
size, or other factors, were all subject to the core conditions and thus the summary judgment order applies to subclasses without
needing to consider the additional allegations of the subclasses.

H. FACTUAL BACKGROUND
Unless otherwise noted, the Court’s statement of facts is taken from the undisputed statements in the parties’ separate statements of
material facts. See dkts. 350. 354. If the Court states a fact was not disputed but the subject of an objection, the Court overrules the
objection.

Since 2006, the Los Angeles Comity Sheriff’s Department (“LASD”) primarily housed the female inmates at CRDF. Inmates
who are transported to court are subject to a visual body cavity (“VBC”) search upon their return to CRDF. The vast majority
of these searches occurred at Bus Bay #3. These searches were conducted in groups of at least twenty inmates, and
sometimes exceeding forty.
Though particular details of any given strip search may vary, LASD issued a strip search script in 2013 which the parties
agree describe common elements of the search from 2008 to 2015. See dkt. 345-1, exh. H; dkt. 284—32, exh. 312.1. The
guards instructed the inmates to disrobe down to their panties, and place their clothes and personal items on a table in front of
them. The inmates then lifted their arms above their head, lifted their breasts, and ran their fingers through the waistline of
their underwear. They were then told to drop their underwear to their knees and leave them there, and to open their belly
buttons and lift their stomach and any skin folds. They were then told to lift their underwear and turn around to face the wall.
The Court notes that the script includes reference to several changes that LASD made throughout the years, such as painting
squares on the floor and installing tables for inmates to put their clothes on, and thus is not indicative of every female inmate’s
experience. However, the Court finds these differences inconsequential to the liability analysis.

*2 At this point the guards asked if any inmates were on her period. If so, they were instructed to remove their tampon or pad
and were given a new pad, but told not to put it on. The guards then ordered the following:

[Pjull down your underwear, take a half step back, spread your feet wide, and bend at your waist, not
at your knees. Reach behind with your hands, spread open your vagina lips, and
. Look between
your legs so you can see when we tell you to get up.
until you are told to get up. When you are
told to get up, face the wall and put your hands behind your back. You should not be talking or looking
around.

Dkt. 345-1, exh. H: dkt. 284-32, exh. 312.1. Inmates who requested a pad were then told they could put it on. The guards
then searched the clothing on the table, and then the inmates got dressed and exited.
The parties do dispute the extent to which the inmates viewed each other during this search. See dkt. 350 f 41. The Court
accepts Defendants’ factual contentions that inmates were “not forced to watch other women”, dkt. 345-3, exh. “X”
(Cholewiak Depo.) at 398:8-16, and that the deputies stood in the middle of the room between the two lines partially
obstructing the view. Defendants produce no evidence, however, that rebuts Plaintiffs’ common sense assertion that the
inmates could not avoid seeing each other’s bare bodies.

Amador v. Baca, Not Reported in Fed. Supp. (2017)

Defendants’ argument that inmates were “instructed” not to look at each other is misplaced. First, as a factual matter, this does not
contradict the assertion that inmates did see each other’s bare bodies both during the initial disrobing and during the VBC
inspection, and thus that assertion remains undisputed. See
(finding that no reasonable fact finder could infer that a group of inmates being strip searched without privacy screens could avoid
observing other inmates’ naked bodies). Second, as a legal matter, the burden is not on the inmates to fix their gaze in a
constitutionally appropriate manner. Rather, the burden is on the Defendants to secure the inmates’ privacy—unless there a
penological purpose or other justification for not doing so.

The layout of Bus Bay #3 and the amount of individuals searched at a time changed throughout the years. The Court finds
some of these changes important to the analysis:
• In April, 2013,24 numbered squares were painted on the floor Bus Bay #3.
• On July 20,2013, CDRF implemented a written policy limiting strip searches to a maximum of 24 inmates at a time.
• In October, 2014, a body scanner machine was installed for purposes of searching inmates. Since that time, only
inmates who refuse to be body-scanned are strip searched.
• 24 privacy curtains were installed in February, 2015.
The particular strip search at issue, a VBC. is considered to be more invasive than a strip search that does not include a body
cavity inspection. Further, a VBC in which the female inmate is told to manually spread her vagina for inspection (“labia
lift”) is more invasive than the alternative “squat-and-cough” procedure. It is undisputed that the search conducted by LASD
is not the standard practice used by other correctional facilities. See dkt. 350 ffll 113, 116 (Defendants object but do not
dispute). Plaintiff’s expert, Wendy Still, is not aware of any other jail that conducts this type of invasive search in a group
setting without individualized privacy (regardless of whether the jail uses the “labia lift” or “squat-and-cough” procedure). Id.
K 117 (Defendants object but do not dispute).
Defendants’ objections to these last two points is that “correctional practices of another institution are irrelevant to a determination
of whether the strip search procedures at CRDF. specifically, were constitutional.” Dkt. 350 YI 116, 117. As discussed further
below, the question is not simply whether or not the strip search “infringes” the constitutional rights of Plaintiffs, but also whether
(“[Ejven
the infringing elements of the search are reasonably related to a legitimate penological interest. See
when an institutional restriction infringes a specific constitutional guarantee ... the practice must be evaluated in the light of the
central objective of prison administration, safeguarding institutional security.”); see also
(“[Wjhen a prison regulation impinges on inmates’ constitutional rights, the regulation is valid if it is reasonably related to
legitimate penological interests.”). Courts have consistently found die practice of other institutions to be relevant under the second
inquiry (whether the infringing element is reasonably related to a valid penological purpose). See
905 (9th Cir. 2001); see also, dkt. 356. PI. Reply, at n. 4 (collecting cases).
The Court further notes that Defendants’ objections to Wendy Still are targeted towards her lack of personal knowledge of CRDF.
See dkt. 355, Def. Reply, at 10. Defendants do not object to her knowledge of standard practices at other correctional facilities.
Further. Defendants have not challenged Still’s qualifications as an expert and have not requested a Daubert hearing.

HI. LEGAL STANDARD
*3 Summary judgment is appropriate if there is no genuine issue of material fact and the moving party is entitled to judgment
. The moving party bears the initial responsibility of informing the court of the basis
as a matter of law.
of its motion, and identifying those portions of the pleadings, depositions, answers to interrogatories, admissions, or
affidavits that demonstrate the absence of a triable issue of material fact.
In determining a motion for summary judgment, all reasonable inferences from the evidence must be drawn in favor of the
. A genuine issue exists if “the evidence is such
nonmoving party.

Amador v. Baca, Not Reported in Fed. Supp. (2017)

that a reasonable jury could return a verdict for the nonmoving party,” and material facts are those “that might affect the
. However, no genuine issue of fact exists “[wjhere the record taken
outcome of the suit under the governing law.”
as a whole could not lead a rational trier of fact to find for the non-moving party.”

IV. APPLICABLE LEGAL FRAMEWORK

A. Turner v. Safley
, the Supreme Court considered the constitutionality of several inmate regulations
In
promulgated by the Missouri Division of Collections. The Court began by describing “the principles that necessarily frame
. Among other things, the Court observed:
our analysis of prisoners’ constitutional claims.”

[Cjourts are ill equipped to deal with die increasingly urgent problems of prison administration and
reform .... [T]he problems of prisons hi America are complex and intractable, and, more to the point,
they are not readily susceptible of resolution by decree. Running a prison is an inordinately difficult
undertaking that requires expertise, planning, and the commitment of resources, all of which are
peculiarly within the province of the legislative and executive branches of government .... Where a
state penal system is involved, federal courts have, as we indicated in Martinez, additional reason to
accord deference to the appropriate prison authorities.

Id. (internal citations and quotation marks omitted). Furthermore:

[Jjudgments regarding prison security are peculiarly within the province and professional expertise of
collections officials, and, in the absence of substantial evidence in the record to indicate that the
officials have exaggerated their response to these considerations, courts should ordinarily defer to their
expert judgment in such matters.

Id. at 86 (internal citations and quotation marks omitted).
In light of these guiding principles, the Court held that “when a prison regulation impinges on inmates’ constitutional rights,
the regulation is valid if it is reasonably related to legitimate penological interests.” Id. at 89. Specifically, the Turner Court
listed four factors in determining the reasonableness of the regulation at issue. “First, there must be a valid, rational
connection between the prison regulation and the legitimate governmental interest put forward to justify it” Id at 89 (internal
quotation marks omitted). Second, courts should consider “whether there are alternative means of exercising the right that
remain open to prison inmates.” Id at 90. “A third consideration is the impact accommodation of the asserted constitutional
right will have on guards and other inmates, and on the allocation of prison resources generally.” Id “Finally, the absence of
ready alternatives is evidence of the reasonableness of a prison regulation. By the same token, the existence of obvious, easy
alternatives may be evidence that the regulation is not reasonable, but is an ‘exaggerated response’ to prison concerns.” Id
The Court cautioned that “[t]his is not a ‘least restrictive alternative’ test: prison officials do not have to set up and then shoot
down every conceivable alternative method of accommodating the claimant’s constitutional complaint. But if an inmate claimant
can point to an alternative that fully accommodates the prisoner’s rights at de minimis cost to valid penological interests, a court

Amador v. Baca, Not Reported in Fed. Supp. (2017)

may consider that as evidence that tile regulation does not satisfy the reasonable relationship standard.”
(internal citations omitted).

B. Bell v. Wolfish
, the Supreme Court held that conducting a visual body cavity search of all inmates
*4 In
who had a contact visit with visitors, without probable cause to believe the inmates were concealing contraband, was
constitutional. In its decision, the Court set forth the applicable legal framework that must be applied where, as here, an
inmate challenges a strip-search policy under the Fourth Amendment:

The test of reasonableness under the Fourth Amendment is not capable of precise definition or
mechanical application. In each case it requires a balancing of the need for the particular search against
the invasion of personal rights that the search entails. Courts must consider the scope of the particular
intrusion, the manner in which it is conducted, the justification for initiating it, and the place in which
it is conducted.

Id. at 559. The Court concluded that VBC inspections could be conducted with less than probable cause, but specifically
reaffirmed that such searches “must be conducted in a reasonable manner.” Id. at 560.

C. Bull v. City & County ofSan Francisco and Florence v. Bd. of Chosen Freeholders
(en banc), an en banc panel of the Ninth Circuit held
In
that the VBC inspection of pre-arraignment arrestees, without any individualized reasonable suspicion that they were
concealing contraband, was constitutional.
The court reasoned that “[bjecause the purpose of the search policy at issue was to further institutional security goals within a
detention facility, the principles articulated in Bell v. Wolfish [cite], and Turner v. Safley [cite], govern our analysis.”
. The court further noted that “[although Bell continues to provide definitive guidance for analyzing detention-facility
. The court
strip searches under the Fourth Amendment, Turner v. Safley is also relevant to our analysis.”
emphasized the substantial deference that must be given to prison officials in this context, reiterating that
even if we “disagree [ ] with the judgment of [collections] officials about the extent of the security interests affected and
, we may not engage in “an impermissible substitution
the means required to further those interests,”
of [our] view on the proper administration of [a collections facility] for that of the experienced administrators of that
facility.”
Id. at 975. Under this deferential standard, the court found that the suspicionless VBC inspection of inmates was
constitutional under both Bell and Turner. Shortly after the Ninth Circuit’s decision in Bull, the Supreme Court reached
, upholding the constitutionality of
essentially the same result in
visual body cavity searches, without reasonable suspicion, of inmates entering the general population of a jail. In so holding,
the Court reaffirmed the deference owed to collections officials in this context:

In addressing this type of constitutional claim courts must defer to the judgment of correctional

Amador v. Baca, Not Reported in Fed. Supp. (2017)

officials unless the record contains substantial evidence showing their policies are an unnecessary or
unjustified response to problems ofjail security.

Id at 322-23. However, the Court acknowledged that “there may be legitimate concerns” about the manner in which strip
searches are conducted, but found that “[tjhese issues are not implicated on the facts of this case”. See id at 339.

V. ANALYSIS
*5 The Bell Court put forth four factors to analyze the reasonableness of a particular search: “Courts must consider [A] the
scope of the particular intrusion, [B] the manner in which it is conducted, [C] the justification for initiating it, and [D] the
. The factors in Turner are also relevant to the analysis. See
place in which it is conducted.”
. Thus, the Court will also consider whether there is a “valid, rational connection between the prison regulation
and the legitimate governmental interest put forward to justify it”; “the impact accommodation of the asserted constitutional
right will have on guards and other inmates, and on the allocation of prison resources generally”; and “the absence [or
existence] of ready alternatives.”

A. The Scope of the Intrusion
The VBC inspections in this case involved no touching by jail personnel and were only conducted by female correctional
officers. Similar ship searches have been held constitutionally permissible by the Ninth Circuit and Supreme Court. See, e.g.,
;
(en banc). The Court notes, however, that Florence
. It is not clear what type of inspection
specifically dealt with a “squat-and-cough” inspection. See
was at issue in Bull, likely because the district court decided that the details of the strip search were inconsequential to the
analysis of whether a blanket strip search policy without individualized suspicion was constitutional. See
(noting a “spectrum of
possible search practices” but finding “the distinctions ... of searches make no difference in the analysis.”). The Supreme
Court in Bell briefly described the procedure for males, but was more ambiguous as to the procedure for females. See
(“If the inmate is a male, he must lift his genitals and bend over to spread his buttocks for visual
inspection. The vaginal and anal cavities of female inmates also are visually inspected.”).
As Defendants point out, the search at issue here seems similar to Bell and further similar to the search this Court reviewed in
Solis v. Baca, Case No. CV 06-1135 SCW(CTx) (“So//s”). Defendants note that this more invasive form of a VBC inspection
did not change the constitutional analysis in those cases. The Court agrees that the difference between the “labia lift” and
“squat-and-cough” searches is not constitutionally significant on its own; however, when accessing the overall
reasonableness, this difference should be taken into account. As this Court further notes, Defendants provide no reason why
they used a “labia lift” procedure instead of “squat-and-cough” and do not dispute that the “labia lift” is not standard practice
at correctional facilities. The Court must consider, under Turner, the existence of ready alternatives and the impact to the
Defendants in instituting these alternatives. Here, the “squat-and-cough” was undeniably a ready alternative and undeniably
less invasive, and Defendants fail to provide any reason for failing to use this approach and fail to state any negative impact
that would result from this alternative.
The scope of the intrusion of the VBC inspection at issue is an important factor, even if it is constitutionally permissible
under certain conditions. Thus, this factor alone may not render the search unconstitutional, but the use of a highly invasive
search is intertwined with the other factors in an overall reasonableness analysis.

Amador v. Baca, Not Reported in Fed. Supp. (2017)

B. The Manner in Which it is Conducted
Plaintiffs do not argue that VBC inspections are per se unconstitutional. Nor do they argue that group strip searches are per
se unconstitutional. Rather, the Plaintiffs’ claims rely on the manner in which these particular VBC inspections were
conducted—particularly the intrusiveness of the search combined with the group setting and the lack of individualized
privacy. Plaintiffs argue the particular manner of this search was unconstitutionally invasive for the following reasons:
*6 • Inmates would face the wall, undress down to their underwear, and then be ordered to turn and face the center with
their bare breasts exposed.
• In view of the group, they would raise their arms and lift their breasts.
• They would then lower their underwear to their knees and lift their stomachs and rolls of fat.
• The inmates were then ordered to face the wall, bend at the waist, reach behind then bodies, pull apart their labia, and
. Specifically, the script for the search memorialized in July 2013 reflects that inmates were told to “spread open
your vagina lips.”
• They were ordered to look between their legs, not at the wall, so that they could see when an officer signaled them to
stand up.
• Further, Plaintiffs argue the intrusiveness is heightened by the lack of privacy, and argue a readily available alternative
could have easily accommodated the constitutional errors with little burden on Defendants.
Before the Court analyzes whether the manner of these particular searches were reasonable, the Court notes that Defendants’
arguments in this regard miss the point.
Defendants extensively argue that the initiation of the search at issue was reasonable to combat the known contraband
problems in jail. However, Plaintiffs concede that it is constitutionally permissible to conduct suspicionless strip searches of
all detainees returning to the prison facility. Thus, Defendants’ reliance on cases that merely hold group strip searches are not
per se unconstitutional, or that a particular group search—dissimilar to the search in this case—was not unconstitutional, are
(finding constitutional
unpersuasive to this Court’s inquiry. See, e.g..
a blanket policy of non-body cavity group strip searches that were “no more intrusive on privacy interests than those upheld
(finding group strip searches of
in the Bell case”);
culinary workers constitutional by deferring to prison officials’ judgment that they did not have enough officers to conduct
private searches and because employment in the culinary was voluntary);
(finding group strip search constitutional due to: (1) “severe security risks in attempting to conduct
individual strip-searches”; (2) the random searches would be rendered useless unless all inmates are removed from their cells
simultaneously; and (3) the court found the searches were conducted in the “most effective and efficient” manner);
(finding group strip searches constitutional due to, in part, “the
fact that it is the policy and practice at the institution for an officer to comply with an inmate’s request to be searched
alone.”). Defendants’ strip search policy is distinguishable from all these cases.
The cases Defendants rely on are both distinguishable, and bely Defendants’ contention that Plaintiffs’ “ready alternative”
arguments are a red herring. Several of these cases at least partially base their decision in analyzing the proffered ready
(in
alternatives, and ultimately rejecting them for various reasons. See
finding defendants protected by qualified immunity, the court rejected plaintiffs proffered alternative of a “more private
location” due to officer safety concerns and the potential for prisoners to “discard contraband on the way to the separate
(in upholding constitutionality of emergency jail-wide strip search,
area”);
the court found that plaintiffs proffered alternative of individual searches in private areas would have been “extremely time
consuming” when applied to “3,000 individuals” and “would have defeated the purpose of the swift institution-wide
(upholding constitutionality of group VBC
shakedown”);
searches due to “security concerns” of plaintiffs proffered alternatives, including testimony that prisoners could dispose of
contraband on the way to private locations and that portable screens would block the view of security cameras—and
specifically noting that its holding is “limited to the facts established in this case and should not be read to constitute a carte
blanche approval of all VBC searches”). Thus, despite Defendants’ objections, it is in fact a mandatory inquiry for the Court

Amador v. Baca, Not Reported in Fed. Supp. (2017)

to consider the impact of accommodations that secure constitutional rights, and the absence or existence of ready
alternatives.
Defendants also cite to three S.D.N.Y. cases with questionable persuasive value. See
report and recommendation adopted.
;
. These
opinions are conclusory and involve judgments against pro se plaintiffs. In Smith the court granted Defendants judgment on the
pleadings because the plaintiff failed to “allege facts suggesting that the search did not serve a legitimate penological purpose.”
. In Israel, the court granted defendant’s unopposed motion for summary judgment finding the initiation
. In
of the strip searches constitutional without analyzing the manner in which they were conducted.
Montgomery, the court refused to analyze plaintiff’s argument that privacy partitions were a readily available alternative by
explaining that “the constitutionality of a strip search is not negated by the presence of other inmates and employees of the
. Inexplicably, the court’s opinion never cited to Turner and thus unsurprisingly failed to analyze
facility.”
“the impact accommodation of the asserted constitutional right will have on guards and other inmates, and on the allocation of
. Similarly. Defendants
prison resources generally”; and “the absence [or existence] of ready alternatives.”
. The court granted judgment
rely on
against a pro se plaintiff who challenged his strip search in a group by a homosexual male guard. Id at *4. The court did not cite
Turner nor consider proffered alternatives.

If Defendants meant to argue that the search itself does not impinge on Plaintiffs’ constitutional rights and therefore does not
trigger Turner analysis, this argument can be easily dismissed. “[T]he Fourth Amendment does apply to the invasion of bodily
. 332 (9th Cir. 1988)).
(citing
privacy in prisons.”

1. "Ready Alternatives” and the Impact of Accommodation
, a case very similar to the case before this Court,
*7 In
plaintiffs alleged that their Fourth and Fourteenth Amendment rights were violated while they were detained at Cook County
Jail. Id. at 837. Male plaintiffs were alternatively subject to a “bend-and-spread” search, in which they would bend over and
. They were searched in large groups without individualized
spread their buttocks, or a “squat-and-cough” search,
. Similar to the case before this Court, the Young plaintiffs likewise “concede[d] that it is proper for
privacy.
[Cook County Jail] to conduct strip searches ... in groups. [However,] [t]hey challenge the manner in which those groups
. The Young court concluded that
searches were conducted.”

[B]efore the privacy screens were installed ... [the strip searches] were unreasonable and violated the
Fourth Amendment as a matter of law. During that period, the class members, who were undergoing
one of the most intrusive types of searches the government may permissibly conduct, were subjected to
conditions that greatly enhanced their discomfort and humiliation. They were herded together with
dozens of other men and forced to strip and bend over or squat in front of a large group, with less than
a foot of space between them.

Id. at 851.
Female detainees, however, were searched in cubicles that provided privacy, and always through the “squat-and-cough” approach.

Amador v. Baca, Not Reported in Fed. Supp. (2017)

Plaintiffs here also argue that privacy screens should have been installed in Bus Bay #3. They argue that, accepting the search
itself served a penological purpose, depriving Plaintiffs of individualized privacy during “one of the most intrusive types of
searches the government may permissibly conduct”, See id., did not serve a penological purpose nor would it have been too
burdensome to accommodate. Ultimately, Plaintiff argues that failure to provide such a simple accommodation, with no
justification, is conclusive evidence that die manner of the strip search was unconstitutional as a matter of law.
As an initial matter, this case is distinguishable from the Court’s previous decision in Solis. In Solis, plaintiffs likewise offered
partitions or curtains as a ready alternative to ameliorate privacy concerns. The Court rejected this, citing defendants’ response that
partitions would cause safety issues and be logistically impractical due to cost concerns and the fact they would impede the flow of
traffic through the corridor in which the search was conducted. None of these concerns are present here. It is undisputed that
installing the curtains costs the Defendants less than $8,000. and that the installation was “simple.” See dkt. 350 141—43 (noting
Defendants’ “dispute” on other grounds). Further, unlike Solis, the Bus Bay was primarily used to search inmates and thus
Defendants do not argue the curtains impede a normal flow of traffic or are otherwise incompatible with the space. Lastly,
Defendants point to no “safety concerns” with the use of privacy curtains—but instead only conclusoiy state, for the first time in
their opposition papers via a single paragraph in a declaration by Cmdr. Gutierrez, that they considered “safety concerns” when
instituting their overall search procedure.

The reasons that Defendants offer for not installing privacy curtains sooner can be summarized as follows:
• Installing these curtains did not become feasible until the department installed a body scanner in October, 2014,
because use of the body scanner greatly reduced die number of inmates being strip searched at any given time. Dkt. 345,
Gutierrez Decl., f 23.
*8 • Privacy curtains obstructed a guard’s view of inmates. Id
• The search procedure, as implemented without privacy curtains, was the most “cost-effective” method of conducting
strip searches. Id. at 124.
» The search procedure, as implemented without privacy curtains, posed “the least amount of safety concerns” without
compromising the effectiveness of the search. Id.
Defendants provide no explanation—financial or logistic—why the body scanner itself could not have been installed earlier. See
dkt. 284-38, Still Deck 1) 58, exh. 605 (noting that Cook Comity prisons installed body scanners in 2011). However, this issue was
not briefed by the parties and thus will not be relied on by this Court.

2. Analysis
Prison officials are undoubtedly afforded great deference in their determinations of how to conduct strip searches that serve a
. However, this deference is not absolute.
legitimate penological purpose. See
(“[Djeference does not mean abdication.”). Therefore, courts can reject
weak justifications when compared to the significant constitutional rights at issue. See, e.g.,
(in finding that cross-gender clothed pat-down searches violated the Eighth Amendment, the court
rejected excuses that males needed to perform the search to avoid interrupting lunch periods of female guards. The
concurring opinion analyzed the case under the Fourth Amendment and applied Turner deference, yet nonetheless found a
). Further, courts must reject
constitutional violation and rejected defendants’ weak justifications, See
contradictory evidence, illogical proclamations, and proffered justifications unsupported by evidence. See, e.g.,
(noting a “marked contrast” between the “general statements” offered to
show a valid penological purpose and the “weak” and “contradictory” evidence offered to support those statements); see

Amador v. Baca, Not Reported in Fed. Supp. (2017)

(finding defendants’ argument that privacy partitions were not feasible was “undermined”
also
by their later installation and “use[ ] without problems”). This case involves all of the above.
The fact that the Jordan majority rested its decision on the Eighth Amendment helps Plaintiffs’ argument, since an Eighth
Amendment violation is more difficult to establish than a Fourth Amendment violation.

The Court notes that Hrdlicka dealt with a constitutional claim under the First Amendment. However, this Court finds no reason
why Hrdlicka’s analysis of Turner in rejecting weak and contradictory justifications would be different in the Fourth Amendment
context.

Defendant’s main contention is that installing privacy curtains was not feasible until they installed the body scanner since
prior to the body scanner they had to search many more women at any given time and thus could not provide curtains for all
of them in the same amount of space, as it would have been more difficult to monitor every woman and would have taken
longer. There are several issues with this excuse. The first and most important issue with this proffered justification is the fact
that Defendants began searching inmates in groups of 24 over a year before the body scanner was installed. See dkt. 345, De
La Tone Decl. f 13 (stating that from July 2013 onward “[ojnly 24 inmates could be searched at one time.”). For over a year,
between July 2013 and October 2014, eveiy search was conducted with only 24 women present and without a body scanner.
Thus, Defendants’ own evidence shows that they could—and did—search only 24 inmates at a time before the body scanners
were installed. By definition, it was feasible. Defendants do not attempt to explain this discrepancy and give no reason why
the privacy curtains could not have been installed at least as early as July 2013. Further, if reducing the search group size to
24 women without a body seamier was less efficient and took more time. Defendants should have evidence from July 2013 to
October 2014 to show this Court that searches took longer. Yet, Defendants produce no evidence that the searches dining this
time took longer, were difficult to manage, were unsafe, or were otherwise problematic. See
The Court recognizes that it should give great deference to the justifications of prison officials. However, accepting this
contradictory justification would create a rule of absolute deference, which no courts has found appropriate. See, e.g.,
(rejecting general justifications that relied on contradictory evidence). Deference should be
. Plaintiffs contend that Defendants failed to even consider privacy
given to “informed” decisions. See
curtains until recently. See, e.g., dkt. 284-22, Cmdr. Gutierrez Dep., exh. 180, 146:2-25 (“if that thought [of privacy curtains]
would have come up 20 years ago we wouldn’t probably be here today.”). Defendants do not specifically state when they first
considered adding curtains, but instead simply declare “[t]he installation of such curtains, prior to the installation of the
body-scanner, was not a viable option.” See dkt. 276, Hausser Deck, f 16. Accepting that Defendants considered and rejected
privacy curtains, there is no basis on which this Court can find the decision was “informed” and thus the Court cannot be
deferential to this decision.
The Court also notes that Defendants give no reason why they did not reduce the search group size to 24 women from the
beginning of the class period.

*9 The explanation that these curtains would obstruct the guard’s view of inmates is also unfounded. Privacy curtains have
been used for over two years prior to this summary judgment motion. Yet, Defendants provide no real world evidence that
the curtains have unreasonably obstructed the guard’s view of inmates. See dkt. 284-22, Cmdr. Gutierrez Dep., exh. 180,
153:4-20 (“Q:... [I]n your personal opinion, if you had a ratio of three to one and you had had the curtains installed, it would
have gone fine ... A: I think that an attentive, observant employee is definitely going to be able to do a good job.”). Again, the
Court cannot give deference to a single conclusory explanation accompanied with no evidence or explanation of potential
consequences.
The excuse that the search as implemented was the most “cost-effective” is belied by the fact that installing curtains costs
under $8,000. See dkt. 350
141—43 (noting Defendants’ “dispute” on other grounds). Certainly it was $8,000 cheaper to
not install privacy curtains, yet this is the epitome of a weak justification when compared to the significant constitutional
. The excuse that the search, before installing curtains, provided the least
rights at issue. See, e.g.,
amount of safety concerns is also unaccompanied with evidence or explanation as to the consequences. There is no evidence

Amador v. Baca, Not Reported in Fed. Supp. (2017)

that in the two years since curtains have been implemented there has been any safety concerns. See

Further belying Defendants’ contention that privacy curtains were unfeasible is the fact that Plaintiffs’ expert, Wendy Still, is
unaware of any other jail that conducts invasive strip search without individualized privacy. See dkt. 350 ^ 117. Defendants also do
not cite another jail that does so. As noted, see supra n. 5, this fact is relevant to the Court’s analysis as to whether Defendants’
actions served a penological purpose or w ere otherwise justified. Though LASD may have had unique obstacles that prevented
them from conforming to the standard practices of other jails, Defendants do not provide evidence that these obstacles existed or
that CRDF is unique.
The heart of Defendants’ defense cannot be that accommodating Plaintiffs’ constitutional rights was not feasible or
impractical. They did it. It was feasible. The question, then, is whether Defendants were ignorant of the need to provide such
accommodations. However, Defendants cannot reasonably argue that they were unaware of the obvious alternative of privacy
curtains. See, eg., dkt. 284-22, Cmdr. Gutierrez Dep., exh. 180, 146:2-25 (“if that thought [of privacy curtains] would have
come up 20 years ago we wouldn’t probably be here today.”). The issue of privacy partitions was initially plead and litigated
in Solis, a case which involved the same Defendants, same defense counsel, and same plaintiff’s counsel. See Solis, Case No.
CV 06-1135 SCW(CTx), dkt 76 at 70,72-73 (this document, filed in 2008, discusses other California jails that use either
partitions or curtains to provide privacy to inmates being strip searched). Thus. Defendants were well aware of this
alternative. See also Still Deck, | 61 (acknowledging that the Federal Bureau of Prisons installed privacy partitions in all of
(finding in 2009 that the nonuse of privacy screens during strip searches
its prisons in 1987);
without justification was a Fourth Amendment violation). This is not a case where the required accommodation was
extraordinary or unreasonable. In this case, the accommodation was obvious, cheap, and “simple”, see dkt. 350 U 143, and
Defendants knew it was a ready alternative at least as far back as 2008—two years before this case was filed.

C. The Justification for Initiating the Search
*10 Plaintiffs essentially do not dispute that Defendants are within their light to initiate these searches. Plaintiffs do provide
evidence, however, that there is minimal justification for the invasive VBC search. See dkt. 156
153-59 (noting that
Plaintiffs are supervised at all times when at court, are only out of handcuffs when in a holding tank, go through pat down
searches at the court, and otherwise have minimal contact with the public). However, this Court accepts Defendants’
justification that the searches are necessary to combat the contraband problem in LASD. See dkt. 345, Gutierrez Deck, 5,
7, 16-21, 24; see also, Arroyo Deck, K 13; Diaz Deck, | 13; Estrada Deck, f 13; Hausser Deck, f 13; Ponce Deck, ^ 13;
Shambaugh Deck, K 13; Vargas Deck, ^ 13.

D. The Place in Which it is Conducted
The conditions of Bus Bay #3 are greatly disputed by the parties. Since the Court is granting summary judgment as to the
core conditions, see supra n. 1, the Court can accept—for purposes of this summaiy judgment order only—that Bus Bay #3
was a suitable location for the searches.

E. Totality of the Circumstances
Based on the totality of the circumstances, the Court concludes that Plaintiffs’ Fourth Amendment rights were violated. This
conclusion is based on the invasiveness of the search (i.e. use of the “labia lift” despite less intrusive alternatives), which is
one of the most invasive procedures conducted in penological institutions, the group setting of die search, in which inmates

Amador v. Baca, Not Reported in Fed. Supp. (2017)

could not avoid viewing each other, the lack of privacy within that group setting, and—most importantly—the lack of a
penological purpose or informed justification for not providing individualized privacy. There is substantial evidence in the
record that the manner of the search was an “unnecessary [and] unjustified response to problems of jail security.”

F. Conclusion
There is no question that Defendants had the right to conduct a VBC search on Plaintiffs. However, under Turner,
Defendants must justify their refusal to adopt ready alternatives. They have not produced any evidence explaining why they
conducted these searches, in this fashion, for seven years. To the contrary, the evidence shows that what Defendants claim
was not feasible, was in fact feasible, available, and inexpensive. Since there were readily available alternatives, with
minimal costs of accommodation, on this record the Court GRANTS summaiy judgment in Plaintiffs’ favor.

IV. QUALIFIED IMMUNITY
Plaintiffs’ complaint also named eight individual defendants in their personal and official capacity who are current or former
high-ranking LASD officials. Defendants moved for summary judgment against these claims arguing that the official
capacity claims are duplicative of the Monell claim against the County, See
(official capacity suit against an individual defendant is to be treated as a suit against the employing public entity),
and that the individual claims should be dismissed due to qualified immunity.
Plaintiff did not oppose either of these arguments. The Court finds a suit against individual defendants in their official
capacity for damages is duplicative of a Monell claim, and thus GRANTS summary judgment against these claims. See id;
(reiterating that individuals sued in their
see also
official-capacity for damages, as opposed to injunctive relief, are not “persons” within the meaning of
)•
As to the individual capacity claims, the complaint makes no allegations as to the actions these individual defendants
engaged in. Defendants state, and Plaintiffs do not dispute, that the individual defendants did not conduct any of the
unconstitutional searches themselves. As to their role in creating the search policy, there are no allegations as to which
defendant created or implemented any aspect of the policy or even which time period these defendants maintained their
high-ranking positions within LASD. Thus, the Court cannot discern any individual activity in which any of these defendants
would be personally liable, and therefore GRANTS summary judgment in their favor.
*11 Accordingly, the Court GRANTS summary judgment in favor of Plaintiffs on its Fourth Amendment claim and
GRANTS summary judgment in favor of the individual Defendants.
All Citations
Not Reported in Fed. Supp., 2017 WL 9472901
End of Document

©2019 Thomson Reuters. No claim to original U.S. Government Works.

